<html>
<title> - DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2016</title>
<body><pre>[Senate Hearing 114-]
[From the U.S. Government Publishing Office]


 
  DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2016

                              ----------                              


                      TUESDAY, SEPTEMBER 29, 2015

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 11:20 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. John Hoeven (chairman) presiding.
    Present: Senators Hoeven, Shaheen, and Baldwin.

                    DEPARTMENT OF HOMELAND SECURITY

STATEMENTS OF:
        HON. JOHN ROTH, INSPECTOR GENERAL
        HON. PETER V. NEFFENGER, ADMINISTRATOR, TRANSPORTATION SECURITY 
            ADMINISTRATION


                opening statement of senator john hoeven


    Senator Hoeven. The subcommittee will come to order. Good 
morning. I would like to welcome our witnesses this morning. 
First, I would like to thank Ranking Member Senator Shaheen for 
being here and for her work. And then I would like to welcome 
both Administrator Peter Neffenger as well as the inspector 
general, John Roth. We appreciate both of you being with us 
this morning.
    This month marks the 14th anniversary since the attacks on  

9/11. Our Nation's response to that terrible day's events 
included significant and immediate investment in aviation 
security, and billions of dollars were spent on new people, 
processes, and technology to build layers of security.
    These layers start with intelligence programs and passenger 
pre-screening in advance of travel, and in the plane itself 
with hardened cockpit doors, and awareness of passengers and 
crew members. These layers are intended to be adaptive and 
agile in responding to current threats and tactics. And this is 
important given our adversaries' continued fascination with 
aviation as a target and their changing methods.
    However, now it appears that the security provided by the 
most visible and expensive layer, the screening checkpoint 
itself, has been overestimated. Specifically, media reports 
cited that the Transportation Security Administration (TSA) has 
a failure rate of over 90 percent in covert testing of 
checkpoints. For obvious reasons we cannot elaborate on the 
details of those tests in an open hearing. However, the failure 
calls into question the effectiveness of the people, the 
training, the processes that we have instituted, and the 
technology.
    And remember, all three have to work. All three legs of the 
stool--people, process, and technology--have to be strong and 
balanced to maintain the security system. And clearly we need 
to review the entire process, all three legs, and make changes 
to make sure that security is as effective as possible.
    With respect to the people, TSA screeners have a 
challenging job: they must stay focused on their security 
mission while performing repetitive tasks in a high-pressure, 
high-throughput environment. Meanwhile, organizations like al 
Qaeda disseminate inventive ways to smuggle contraband onto 
airplanes and avoid security measures.
    Supporting this workforce must be the right processes. 
These procedures must be tested and trained as well as applied 
consistently. Many of these processes, as we are all aware, are 
uncomfortable both for the screeners and the passengers, and 
appreciation of both points of view is critical.
    Last, TSA has always sought with varying degrees of success 
to embrace cutting-edge technology. The 2009 Christmas Day plot 
and the use of non-metallic explosives aboard a commercial 
aircraft demanded a solution. The advanced imaging technology 
(AIT) we have deployed is not a silver bullet. All these 
facts--the people, processes, and the technology--must work in 
concert. Must work in concert. A failure of any one weakens the 
entire system.
                           prepared statement
    Today the inspector general issued the final report associated with 
the leaked testing information. To the extent possible in an open 
hearing, I have asked the inspector general to lay out the findings and 
recommendations in that report. He will also outline his office's other 
work on passenger screening in recent years.
    Secretary Johnson responded quickly to the leak back in June 
outlining a 10-point plan of action. That plan is now yours, 
Administrator Neffenger's, to shape and to execute. I look forward to 
questioning you about the plan in detail, including the resource 
implications, which, of course, is our area of responsibility, and the 
right metrics by which to measure progress and success. Very important. 
We have to have a way to measure our progress and success.
    [The statement follows:]
               Prepared Statement of Senator John Hoeven
    The Subcommittee will come to order. Good morning. I would first 
like to welcome our witnesses. Administrator Peter Neffenger is the 
recently confirmed Assistant Secretary of the Transportation Security 
Administration. The Coast Guard's loss is TSA's gain and we look 
forward to working with you in this capacity.
    And the Department of Homeland Security's Inspector General, John 
Roth. Thank you both for being here.
    Thank you also to Ranking Member Shaheen and other subcommittee 
members for your time and attention to this important issue.
    This month marks the 14th Anniversary since the attacks on 
September 11th. Our nation's response to that terrible day's events 
included a significant and immediate investment in aviation security. 
Billions of dollars were spent on new people, processes, and technology 
to build new ``layers'' of security.
    These layers start with intelligence programs and passenger pre-
screening in advance of travel and end in the plane itself with 
hardened cockpit doors and aware passengers and crew members.
    These layers are intended to be adaptive and agile, responding to 
current threats and
    tactics. This is important given the adversary's continued 
fascination with aviation as a target.
    However, it now appears that the security provided by the most 
visible--and expensive layer--the screening checkpoint itself, was 
overestimated. Specifically, media reports cited that TSA had a failure 
rate of over 90 percent in covert testing of checkpoints.
    For obvious reasons, we cannot elaborate on the details of those 
tests in an open hearing. However, the failures call into question the 
effectiveness of: (1) the people we have hired and trained; (2) the 
processes we have instituted; and (3) the technology we have procured.
    All three legs of the stool--people, process, and technology--have 
to be strong and balanced to maintain the security system. And, it 
seems to me, that we need to review our entire system and make changes 
to ensure it is effective.
    With respect to people, TSA screeners have a challenging job. They 
must stay focused on their security mission while performing monotonous 
tasks in a high pressure, high throughput environment. Meanwhile, 
organizations like al-Qaeda disseminate inventive ways to smuggle 
contraband onto airplanes and avoid security measures.
    Supporting this workforce must be the right processes. These 
procedures must be tested and trained as well as applied consistently. 
Many of these processes--as we're all aware--are uncomfortable for both 
the screeners and passengers. An appreciation of both points of view is 
critical.
    Lastly, TSA has always sought--with varying degrees of success--to 
embrace cutting edge technology. The 2009 Christmas Day plot and the 
use of non-metallic explosives aboard a commercial aircraft demanded a 
solution. But the Advanced Imaging Technology we have deployed is not a 
silver bullet.
    All of these facets: the people, the processes, and the technology, 
must work in concert. A failure of one weakens the entire system.
    Today, the Inspector General issued the final report associated 
with the leaked testing information. To the extent possible in an open 
hearing, I have asked the Inspector General to lay out the findings and 
recommendation in that report. He will also outline his office's other 
work on passenger screening in recent years.
    Secretary Johnson responded quickly to the leak back in June 
outlining a 10-point plan of action. That plan is now Administrator 
Neffenger's to shape and execute. I look forward to questioning him 
about the plan in detail, including the resource implications and the 
right metrics by which to measure progress and success.

    Senator Hoeven. With that, I'd turn it over to Senator 
Shaheen for her opening comments.

                  STATEMENT OF SENATOR JEANNE SHAHEEN

    Senator Shaheen. Well, thank you very much, Mr. Chairman, 
both for your remarks and for calling this hearing this 
morning. I also want to thank Administrator Neffenger and 
Inspector General Roth both for being here this morning and for 
taking on the very challenging jobs that you are doing so well.
    The point of the hearing today is really to assure the 
public that TSA is taking the appropriate steps to make air 
travel safe and to see that taxpayer dollars for aviation 
security are being spent wisely. As Chairman Hoeven pointed 
out, earlier this year the inspector general performed an audit 
of TSA screening by conducting numerous tests across eight 
airports of different sizes. The data from the audit are 
classified, but I think it is fair to say that all of us agree 
that the results were extremely troubling.
    The results from those tests were so concerning that the 
inspector general halted the audit before it was completed in 
order to inform the Secretary of Homeland Security that TSA had 
a major problem. The Secretary responded by putting together a 
Tiger Team of Department of Homeland Security (DHS) and TSA 
officials to fully evaluate TSA's screening apparatus. He also 
called for agency officials to think outside the box, to 
challenge old assumptions, and to listen to the Transportation 
Security Administration offices in the field who are doing the 
job day in and day out.
    So today we will explore what the Tiger Team found, and 
discuss changes that are being made to screening techniques, to 
standard operating procedures, employee training and 
technology, and other innovative ideas to improve the agency. 
Now, again, as Chairman Hoeven pointed out, because this is the 
appropriations subcommittee on Homeland Security, we are very 
concerned about what the resource implications are if these 
changes are implemented. We will be looking at TSA's risk-based 
approaches to passenger screening, and whether there is an 
appropriate balance between security effectiveness and 
screening efficiency.
    So, again, Mr. Chairman, thank you for holding this hearing 
today, and I look forward to hearing from our witnesses.
    Senator Hoeven. Thank you, Senator Shaheen. I will also now 
turn to Senator Baldwin. Thank you for joining us, and ask if 
you have any opening comments.
    Senator Baldwin. Other than to thank you and the ranking 
member for holding this hearing. As a member of both the 
Homeland Security and Governmental Affairs Committee and the 
Appropriations Subcommittee on Homeland Security, following on 
implementation of recommendations from the inspector general 
has been a great concern of mine, and I will have several 
questions after the testimony is received. But I look forward 
to hearing that testimony, and thank you for holding this 
hearing.
    Senator Hoeven. Thank you, Senator Baldwin. With that, I 
would turn to John Roth, the inspector general, for his report.

                  SUMMARY STATEMENT OF HON. JOHN ROTH

    Mr. Roth. Good morning, Chairman Hoeven, Ranking Member 
Shaheen, and members of the subcommittee. Thank you for 
inviting me here to testify regarding our work involving TSA. 
Our reviews, and there have been 115 reviews, audits, and 
inspections, that have given us a perspective on the obstacles 
facing TSA in carrying out its important, but very difficult, 
mission: to protect the Nation's transportation systems while 
at the same time ensuring freedom of movement.
    I have been deeply concerned about the challenges TSA faces 
in their ability to meet those challenges. These challenges are 
in almost every area of TSA's operations: its problematic 
implementation of risk assessment rules, including the 
management of TSA PreCheck; deficiencies in TSA's duties as a 
regulator of our Nation's 450 commercial airports, particularly 
in the area of employee screening; failures in passenger and 
baggage screening operations, discovered in part for a covert 
testing program; TSA's controls over access to secure areas, 
including management of its access badge program, its 
management of its workforce integrity program, and its 
oversight over its acquisition and maintenance of screening 
equipment.
    I will confess to a degree of frustration that TSA was 
assessing risk inappropriately and did not have the ability to 
perform the basic management functions it needed in order to 
perform this crucial mission. These issues were exacerbated, in 
my judgment, by a culture that resisted oversight and was 
unwilling to accept the need for change in the face of an 
evolving and serious threat. We had been writing reports 
highlighting some of these reports for years without an 
acknowledgement by TSA of the need to correct those 
deficiencies.
    However, we may be in a very different place than we were 
in recent months. I am hopeful that Administrator Neffenger 
brings with him a new attitude about oversight. It will take a 
sustained and disciplined effort, but having the courage to 
critically assess these deficiencies in an honest, objective 
light is the first step, and I believe TSA has taken that first 
step in recent months.
    We have just completed and distributed our report on our 
most recent round of covert testing. The results, of course, 
are classified at the secret level, and the Department and this 
committee have been provided a copy. The testing, as the 
chairman points out, was of the AIT equipment, the advanced 
imaging technology, in use at airports across the country. This 
is the state-of-art in imaging technology.
    While I cannot talk about the specifics in this setting, I 
am able to say that we conducted the audit with sufficient 
rigor to satisfy the standards contained within the generally 
accepted government auditing standards, that the tests were 
conducted by our auditors without any special knowledge or 
training, and that the test results were disappointing and 
troubling. We ran multiple tests at eight different airports of 
different sizes, including large category X airports across the 
country, and tested airports using private screeners. The 
results were consistent across every airport.
    Our testing was designed to test checkpoint operations in 
real world conditions. They were not designed to test specific 
discreet segments of checkpoint operations, but rather the 
system as a whole. The failures included failures in 
technology, in TSA procedures and process, and human error. We 
found layers of security simply missing. It would be misleading 
to minimize the rigor of our testing or to imply that our 
testing was not an accurate reflection of the effectiveness in 
the totality of aviation security.
    The results unfortunately were not unexpected. We had 
conducted other covert tests in the past of check baggage X-ray 
screening, of access controls to secure airport areas, of the 
screening of carry-on luggage, and of the previous generation 
of AIT machines that were in use several years ago. In each of 
these tests, we discovered significant vulnerabilities.
    Fortunately, the Department's response to our most recent 
findings has been swift and unequivocal. For example, within 24 
hours of receiving the preliminary results of the Office of the 
Inspector General (OIG) covert testing, the Secretary summoned 
TSA leadership and directed that an immediate plan of action be 
created to correct the deficiencies uncovered by this testing. 
These efforts have already resulted in significant changes to 
TSA leadership, operations, training, and policy.
    TSA has put forward a plan consistent with our 
recommendations to improve checkpoint quality in three areas: 
technology, personnel, and procedures. This is appropriate, as 
the chairman noted, because the checkpoint must be considered 
as a single system. The most effective technology is useless 
without the right personnel, and the personnel need to be 
guided by appropriate procedures. Unless all three elements are 
operating effectively, the checkpoint itself will not be 
effective. However, this is a difficult problem, and it will 
take time to fix.

                           PREPARED STATEMENT

    We will be monitoring TSA's efforts to increase the 
effectiveness of checkpoint operations, and we will continue to 
conduct covert testing. Consistent with our obligations under 
the Inspector General Act, we will report our results to this 
committee as well as other committees of jurisdiction.
    Mr. Chairman, this concludes my prepared statement. I 
welcome any questions you or members of the subcommittee may 
have.
    [The statement follows:]

                  Prepared Statement of Hon. John Roth
  discussing the transportation security administration's efforts to 
                   address inspector general findings
    Good morning Chairman Hoeven, Ranking Member Shaheen, and Members 
of the Subcommittee. Thank you for inviting me here today to discuss 
our work on the Transportation Security Administration (TSA) and areas 
we believe are in need of attention for improving the agency. Our 
reviews have given us a perspective on the obstacles facing TSA in 
carrying out an important, but incredibly difficult mission to protect 
the Nation's transportation systems and ensure freedom of movement for 
people and commerce.
    I testified before a different Congressional committee in May of 
this year regarding my concerns about TSA's ability to execute its 
important mission. At that hearing, I highlighted the challenges TSA 
faced. I testified that these challenges were in almost every area of 
TSA's operations: its problematic implementation of risk assessment 
rules, including its management of TSA Precheck; failures in passenger 
and baggage screening operations, discovered in part through our covert 
testing program; TSA's controls over access to secure areas, including 
management of its access badge program; its management of the workforce 
integrity program; TSA's oversight over its acquisition and maintenance 
of screening equipment; and other issues we have discovered in the 
course of over 115 audit and inspection reports.
    My remarks were described by a Senator at Administrator Neffenger's 
confirmation hearing as ``unusually blunt testimony from a government 
witness,'' and I will confess that it was. However, those remarks were 
born of frustration that TSA was assessing risk inappropriately and did 
not have the ability to perform basic management functions in order to 
meet the mission the American people expect of it. These issues were 
exacerbated, in my judgment, by a culture, developed over time, which 
resisted oversight and was unwilling to accept the need for change in 
the face of an evolving and serious threat. We have been writing 
reports highlighting some of these problems for years without an 
acknowledgment by TSA of the need to correct its deficiencies.
    We may be in a very different place than we were in May. I am 
hopeful that Administrator Neffenger brings with him a new attitude 
about oversight. Ensuring transportation safety is a massive and 
complex problem, and there is no silver bullet to solve it. It will 
take a sustained and disciplined effort. However, the first step in 
fixing a problem is having the courage to critically assess the 
deficiencies in an honest and objective light. Creating a culture of 
change within TSA, and giving the TSA workforce the ability to identify 
and address risks without fear of retribution, will be the new 
Administrator's most critical and challenging task.
    I believe that the Department and TSA leadership have begun the 
process of critical self-evaluation and, aided by the dedicated 
workforce of TSA, are in a position to begin addressing some of these 
issues. I am hopeful that the days of TSA sweeping its problems under 
the rug and simply ignoring the findings and recommendations of the OIG 
and GAO are coming to an end.
    I have been gratified by the Department's response, and believe 
that this episode serves as an illustration of the value of the Office 
of Inspector General, particularly when coupled with a Department 
leadership that understands and appreciates objective and independent 
oversight.
                     our most recent covert testing
    We have just completed and distributed our report on our most 
recent round of covert testing. The results are classified at the 
Secret level, and the Department and this Committee have been provided 
a copy of our classified report. TSA justifiably classifies at the 
Secret level the validated test results; any analysis, trends, or 
comparison of the results of our testing; and specific vulnerabilities 
uncovered during testing. Additionally, TSA considers other information 
protected from disclosure as Sensitive Security Information.
    While I cannot talk about the specifics in this setting, I am able 
to say that we conducted the audit with sufficient rigor to satisfy the 
standards contained within the Generally Accepted Government Auditing 
Standards, that the tests were conducted by auditors within our Office 
of Audits without any special knowledge or training, and that the test 
results were disappointing and troubling. We ran multiple tests at 
eight different airports of different sizes, including large category X 
airports across the country, and tested airports using private 
screeners as part of the Screening Partnership Program. The results 
were consistent across every airport.
    Our testing was designed to test checkpoint operations in real 
world conditions. They were not designed to test specific, discrete 
segments of checkpoint operations, but rather the system as a whole. 
The failures included failures in the technology, in TSA procedures, 
and in human error. We found layers of security simply missing. It 
would be misleading to minimize the rigor of our testing, or to imply 
that our testing was not an accurate reflection of the effectiveness of 
the totality of aviation security.
    The results were not, however, unexpected. We had conducted other 
covert testing in the past:
  --In September 2014, we conducted covert testing of the checked 
        baggage screening system, and identified significant 
        vulnerabilities in this area caused by human and technology 
        based failures. We also determined that TSA did not have a 
        process in place to assess or identify the cause for equipment-
        based test failures or the capability to independently assess 
        whether deployed explosive detection systems are operating at 
        the correct detection standards. We found that, notwithstanding 
        an intervening investment of over $550 million, TSA had not 
        improved checked baggage screening since our 2009 report on the 
        same issue. (Vulnerabilities Exist in TSA's Checked Baggage 
        Screening Operations, OIG-14-142, Sept. 2014)
  --In January 2012, we conducted covert testing of access controls to 
        secure airport areas, and identified significant access control 
        vulnerabilities, meaning uncleared individuals could have 
        unrestricted and unaccompanied access to the most vulnerable 
        parts of the airport--the aircraft and checked baggage. (Covert 
        Testing of Access Controls to Secured Airport Areas, OIG-12-26, 
        Jan. 2012)
  --In 2011, we conducted covert penetration testing on the previous 
        generation of AIT machines in use at the time, the testing was 
        far broader than this round of testing, and likewise discovered 
        significant vulnerabilities. (Penetration Testing of Advanced 
        Imaging Technology, OIG-12-06, Nov. 2011)
                            the dhs response
    The Department's response to our most recent findings has been 
swift and definite. For example, within 24 hours of receiving 
preliminary results of OIG covert penetration testing, the Secretary 
summoned senior TSA leadership and directed that an immediate plan of 
action be created to correct deficiencies uncovered by our testing. 
Moreover, DHS has initiated a program--led by members of Secretary 
Johnson's leadership team--to conduct a focused analysis on issues that 
the OIG has uncovered, as well as other matters. These efforts have 
already resulted in significant changes to TSA leadership, operations, 
training, and policy, although the specifics of most of those changes 
cannot be discussed in an open setting, and should, in any event, come 
from TSA itself.
    TSA has put forward a plan, consistent with our recommendations, to 
improve checkpoint quality in three areas: technology, personnel, and 
procedures. This is appropriate because the checkpoint must be 
considered as a single system: the most effective technology is useless 
without the right personnel, and the personnel need to be guided by the 
appropriate procedures. Unless all three elements are operating 
effectively, the checkpoint will not be effective.
    We will be monitoring TSA's efforts to increase the effectiveness 
of checkpoint operations, and will continue to conduct covert testing. 
Consistent with our obligations under the Inspector General Act, we 
will report our results to this Subcommittee as well as other 
committees of jurisdiction.
                     tsa and the asymmetric threat
    Nowhere is the asymmetric threat of terrorism more evident than in 
the area of aviation security. TSA cannot afford to miss a single, 
genuine threat without potentially catastrophic consequences, and yet a 
terrorist only needs to get it right once. Securing the civil aviation 
transportation system remains a formidable task--with TSA responsible 
for screening travelers and baggage for over 1.8 million passengers a 
day at 450 of our Nation's airports. Complicating this responsibility 
is the constantly evolving threat by adversaries willing to use any 
means at their disposal to incite terror.
    The dangers TSA must contend with are complex and not within its 
control. Recent media reports have indicated that some in the U.S. 
intelligence community warn terrorist groups like the Islamic State 
(ISIS) may be working to build the capability to carry out mass 
casualty attacks, a significant departure from--and posing a different 
type of threat than--simply encouraging lone wolf attacks. According to 
these media reports, a mass casualty attack has become more likely in 
part because of a fierce competition with other terrorist networks--
being able to kill opponents on a large scale would allow terrorist 
groups such as ISIS to make a powerful showing. We believe such an act 
of terrorism would likely be designed to impact areas where people are 
concentrated and vulnerable, such as the Nation's commercial aviation 
system.
                    mere intelligence is not enough
    In the past, officials from TSA, in testimony to Congress, in 
speeches to think tanks, and elsewhere, have described TSA as an 
intelligence-driven organization. According to TSA, it continually 
assesses intelligence to develop countermeasures in order to enhance 
these multiple layers of security at airports and onboard aircraft. 
This is a necessary thing, but it is not sufficient.
    In the vast majority of the instances, the identities of those who 
commit terrorist acts were simply unknown to or misjudged by the 
intelligence community. Terrorism, especially suicide terrorism, 
depends on a cadre of newly-converted individuals who are often unknown 
to the intelligence community. Moreover, the threat of ISIS or Al Qaeda 
inspired actors--those with no formal ties to the larger organizations 
but simply take inspiration from them--increase the possibilities of a 
terrorist actor being unknown to the intelligence community.
    Recent history bears this out:
  --17 of the 19 September 11th hijackers were unknown to the 
        intelligence community. In fact, many were recruited 
        specifically because they were unknown to the intelligence 
        community.
  --Richard Reid, the 2002 ``shoe bomber,'' was briefly questioned by 
        the French police, but allowed to board an airplane to Miami. 
        He had the high explosive PETN in his shoes, and but for the 
        intervention of passengers and flight crew, risked bringing 
        down the aircraft.
  --The Christmas Day 2009 bomber, who was equipped with a 
        sophisticated non-metallic explosive device provided by Al 
        Qaeda, was known to certain elements of the intelligence 
        community but was not placed in the Terrorist Screening 
        Database, on the Selectee List, or on the No Fly List. A 
        bipartisan Senate report found there were systemic failures 
        across the Intelligence Community, which contributed to the 
        failure to identify the threat posed by this individual.
  --The single most high profile domestic terrorist attack since 9/11, 
        the Boston Marathon bombing, was masterminded and carried out 
        by Tamerlan Tsarnaev, an individual who approximately 2 years 
        earlier was judged by the FBI not to pose a terrorist threat, 
        and who was not within any active U.S. Government databases.
    Of course, there are instances in which intelligence can foil plots 
that screening cannot detect--such as the 2006 transatlantic aircraft 
plot, utilizing liquid explosives, the October 2010 discovery of U.S.--
bound bombs concealed in printer cartridges on cargo planes in England 
and Dubai, and the 2012 discovery that a second generation nonmetallic 
device, designed for use onboard aircraft, had been produced.
    What this means is that there is no easy substitute for the 
checkpoint. The checkpoint must necessarily be intelligence driven, but 
the nature of terrorism today means that each and every passenger must 
be screened in some way.
                         beyond the checkpoint
    Much of the attention has been focused on the checkpoint, since 
that is the primary and most visible means of entry onto aircraft. But 
effective checkpoint operations simply are not of themselves 
sufficient. Aviation security must also look at other areas to 
determine vulnerabilities.
            Assessment of passenger risk
    We applaud TSA's efforts to use risk-based passenger screening 
because it allows TSA to focus on high-risk or unknown passengers 
instead of known, vetted passengers who pose less risk to aviation 
security.
    However, we have had deep concerns about some of TSA's previous 
decisions about this risk. For example, we recently assessed the 
Precheck initiative, which is used at about 125 airports to identify 
low-risk passengers for expedited airport checkpoint screening. 
Starting in 2012, TSA massively increased the use of Precheck. Some of 
the expansion, for example allowing Precheck to other Federal 
Government-vetted or known flying populations, such as those in the CBP 
Trusted Traveler Program, made sense. In addition, TSA continues to 
promote participation in Precheck by passengers who apply, pay a fee, 
and undergo individualized security threat assessment vetting.
    However, we believe that TSA's use of risk assessment rules, which 
granted expedited screening to broad categories of individuals 
unrelated to an individual assessment of risk, but rather on some 
questionable assumptions about relative risk based on other factors, 
created an unacceptable risk to aviation security.\1\ Additionally, TSA 
used ``managed inclusion'' for the general public, allowing random 
passengers access to Precheck lanes with no assessment of risk. 
Additional layers of security TSA intended to provide, which were meant 
to compensate for the lack of risk assessment, were often simply not 
present.
---------------------------------------------------------------------------
    \1\ As an example of Precheck's vulnerabilities, we reported that, 
through risk assessment rules, a felon who had been imprisoned for 
multiple convictions for violent felonies while participating in a 
domestic terrorist group was granted expedited screening through 
PreCheck.
---------------------------------------------------------------------------
    We made a number of recommendations as a result of several audits 
and inspections. Disappointingly, when the report was issued, TSA did 
not concur with the majority of our 17 recommendations. At the time, I 
testified that I believed this represented TSA's failure to understand 
the gravity of the risk that they were assuming. I am pleased to 
report, however, that we have recently made significant progress in 
getting concurrence and compliance with these recommendations.
            Access to secure areas
    TSA is responsible, in conjunction with the 450 airports across the 
country, to ensure that the secure areas of airports, including the 
ability to access aircraft and checked baggage, are truly secure. In 
our audit work, we have had reason to question whether that has been 
the case. We conducted covert testing in 2012, to see if auditors could 
get access to secure areas by a variety of means. While the results of 
those tests are classified, they were similar to the other covert 
testing we have done, which was disappointing. We are doing work 
currently in this area as well, determining whether controls over 
access media badges issued by airport operators is adequate. We are 
also engaging in an audit of the screening process for the 
Transportation Worker Identification Credential program (TWIC), to see 
whether it is operating effectively and whether the program's continued 
eligibility processes ensures that only eligible TWIC card holders 
remain eligible.
            Other questionable investments in aviation security
    TSA uses behavior detection officers to identify passenger 
behaviors that may indicate stress, fear, or deception. This program, 
Screening Passengers by Observation Techniques (SPOT), includes more 
than 2,800 employees and has cost taxpayers about $878 million from 
fiscal years 2007 through 2012.
    We understand the desire to have such a program. Israel is foremost 
in their use of non-physical screening, although the differences in 
size, culture and attitudes about civil liberties make such a program 
difficult to adopt in this country. In the United States, sharp-eyed 
government officials were able to assess behavior to prevent entry to 
terrorists on two separate occasions:
  --Ahmed Ressam's plot to blow up the Los Angeles International 
        Airport on New Year's eve 1999 was foiled when a U.S. Customs 
        officer in Port Angeles, Washington, thought Ressam was acting 
        ``hinky'' and directed a search of his car, finding numerous 
        explosives and timers.
  --In 2001, a U.S. immigration officer denied entry to the United 
        States to Mohammed al Qahtani, based on Qahtani's evasive 
        answers to his questions. Later investigation by the 9/11 
        Commission revealed that Qahtani was to be the 20th hijacker, 
        assigned to the aircraft that ultimately crashed in 
        Shanksville, Pennsylvania.
    However, we have deep concerns that the current program is both 
expensive and ineffective. In 2013, we audited the SPOT program and 
found that TSA could not ensure that passengers were screened 
objectively. Nor could it show that the program was cost effective or 
merited expansion. We noted deficiencies in selection and training of 
the behavior detection officers. Further, in a November 2013 report on 
the program, the Government Accountability Office (GAO) reported that 
TSA risked funding activities that had not been determined to be 
effective. Specifically, according to its analysis of more than 400 
studies, GAO concluded that SPOT program behavioral indicators might 
not be effective in identifying people who might pose a risk to 
aviation security. TSA has taken steps to implement our recommendations 
and improve the program. However, the program remains an example of a 
questionable investment in security.
    Likewise, the Federal Air Marshal Program costs the American 
taxpayer over $800 million per year. The program was greatly expanded 
after 9/11 to guard against a specific type of terrorist incident. In 
the intervening years, terrorist operations and intentions have 
evolved. We will be looking at the Federal Air Marshal Program this 
year to determine whether the significant investment of resources in 
the program is justified by the risk.
            TSA's role as regulator
    TSA has dual responsibilities, one to provide checkpoint security 
for passengers and baggage and another to oversee and regulate airport 
security provided by airport authorities. The separation of 
responsibility for airport security between TSA and the airport 
authorities creates a potential vulnerability in safeguarding the 
system. The concern about which entity is accountable for protecting 
areas other than checkpoints has come up in relation to airport worker 
vetting, perimeter security, and cargo transport. We have also assessed 
whether TSA is appropriately regulating airports, such as whether it 
ensures airports' compliance with security regulations. We have found 
shortfalls.
    In the case of airport worker vetting, for example, TSA relies on 
airports to submit complete and accurate aviation worker application 
data for vetting. In a recent audit, we found TSA does not ensure that 
airports have a robust verification process for criminal history and 
authorization to work in the United States, or sufficiently track the 
results of their reviews. TSA also did not have an adequate monitoring 
process in place to ensure that airport operators properly adjudicated 
credential applicants' criminal histories. TSA officials informed us 
that airport officials rarely or almost never documented the results of 
their criminal history reviews electronically. Without sufficient 
documentation, TSA cannot systematically determine whether individuals 
with access to secured areas of the airports are free of disqualifying 
criminal events.
    As a result, TSA is required to conduct manual reviews of aviation 
worker records. Due to the workload at larger airports, this inspection 
process may look at as few as 1 percent of all aviation workers' 
applications. In addition, inspectors were generally reviewing files 
maintained by the airport badging office, which contained photocopies 
of aviation worker documents rather than the physical documents 
themselves. An official told us that a duplicate of a document could 
hinder an inspector's ability to determine whether a document is real 
or fake, because a photocopy may not be matched to a face, and may not 
show the security elements contained in the identification document.
    Additionally, we identified thousands of aviation worker records 
that appeared to have incomplete or inaccurate biographic information. 
Without sufficient documentation of criminal histories or reliable 
biographical data, TSA cannot systematically determine whether 
individuals with access to secured areas of the airports are free of 
disqualifying criminal events, and TSA has thus far not addressed the 
poor data quality of these records.
    Further, the responsibility for executing perimeter and airport 
facility security is in the purview of the 450 local airport 
authorities rather than TSA. There is no clear structure for 
responsibility, accountability and authority at most airports, and the 
potential lack of local government resources makes it difficult for TSA 
to issue and enforce higher standards to counter new threats. 
Unfortunately, intrusion prevention into restricted areas and other 
ground security vulnerabilities is a lower priority than checkpoint 
operations.
                               conclusion
    Making critical changes to TSA's culture, technology, and processes 
is not an easy undertaking. However, a commitment to and persistent 
movement towards effecting such changes--including continued progress 
towards complying with our recommendations--is paramount to ensuring 
transportation security. We recognize and are encouraged by TSA's steps 
towards compliance with our recent recommendations. Without a sustained 
commitment to addressing known vulnerabilities, the agency risks 
compromising the safety of the Nation's transportation systems.
    Mr. Chairman, this concludes my prepared statement. I welcome any 
questions you or other Members of the Subcommittee may have.
                                 ______
                                 
                               appendix a
    recent oig reports on the transportation security administration
    Covert Testing of the TSA's Passenger Screening Technologies and 
Processes at Airport Security Checkpoints (Unclassified Summary), OIG-
15-150, September 2015
    Use of Risk Assessment within Secure Flight (Redacted), OIG-14-153, 
June 2015
    TSA Can Improve Aviation Worker Vetting (Redacted), OIG-15-98, June 
2015
    The Transportation Security Administration Does Not Properly Manage 
Its Airport Screening Equipment Maintenance Program, OIG-15-86, May 
2015
    Allegation of Granting Expedited Screening through TSA PreCheck 
Improperly (Redacted), OIG-15-45, March 2015
    Security Enhancements Needed to the TSA PreCheck Initiative 
(Unclassified Summary), OIG-15-29, January 2015
    Vulnerabilities Exist in TSA's Checked Baggage Screening Operations 
(Unclassified Spotlight), OIG-14-142, September 2014
                                 ______
                                 
                               appendix b
       status of recommendations for selected oig reports on tsa

----------------------------------------------------------------------------------------------------------------
          Report No.             Report Title     Date Issued   Recommendation   Current Status   Mgmt. Response
----------------------------------------------------------------------------------------------------------------
OIG-11-47                      DHS Department-      3/2/2011   We recommend     Closed           Agreed
                                wide Management                 that the
                                of Detection                    Deputy Under
                                Equipment.                      Secretary for
                                                                Management
                                                                reestablish
                                                                theJoint
                                                                Requirements
                                                                Council..
OIG-11-47                      DHS Department-      3/2/2011   We recommend     Closed.........  Agreed
                                wide Management                 that the
                                of Detection                    Deputy Under
                                Equipment.                      Secretary for
                                                                Management:
                                                                Establish a
                                                                commodity
                                                                council for
                                                                detection
                                                                equipment,
                                                                responsible
                                                                for:
                                                                Coordinating,
                                                                communicating,
                                                                and, where
                                                                appropriate,
                                                                strategically
                                                                sourcing items
                                                                at the
                                                                department
                                                                level or
                                                                identifying a
                                                                single source
                                                                commodity
                                                                manager;
                                                                Standardizing
                                                                purchases for
                                                                similar
                                                                detection
                                                                equipment; and
                                                                Developing a
                                                                data
                                                                dictionary
                                                                that
                                                                standardizes
                                                                data elements
                                                                in inventory
                                                                accounts for
                                                                detection
                                                                equipment..
OIG-12-06                      Transportation     11/21/2011   Recommendation   Closed.........  Agreed
                                Security                        includes
                                Administration                  Sensitive
                                Penetration                     Security
                                Testing of                      Information..
                                Advanced
                                Imaging
                                Technology.
OIG-12-06                      Transportation     11/21/2011   Recommendation   Closed.........  No
                                Security                        includes
                                Administration                  Sensitive
                                Penetration                     Security
                                Testing of                      Information..
                                Advanced
                                Imaging
                                Technology.
OIG-12-06                      Transportation     11/21/2011   Recommendation   Closed*........  Agreed
                                Security                        includes
                                Administration                  Sensitive
                                Penetration                     Security
                                Testing of                      Information..
                                Advanced
                                Imaging
                                Technology.
OIG-12-06                      Transportation     11/21/2011   Recommendation   Closed*........  Agreed
                                Security                        includesSensit
                                Administration                  ive Security
                                Penetration                     Information..
                                Testing of
                                Advanced
                                Imaging
                                Technology.
OIG-12-06                      Transportation     11/21/2011   Recommendation   Closed.........  Agreed
                                Security                        includes
                                Administration                  Sensitive
                                Penetration                     Security
                                Testing of                      Information..
                                Advanced
                                Imaging
                                Technology.
OIG-12-06                      Transportation     11/21/2011   Recommendation   Closed.........  Agreed
                                Security                        includes
                                Administration                  Sensitive
                                Penetration                     Security
                                Testing of                      Information..
                                Advanced
                                Imaging
                                Technology.
OIG-12-06                      Transportation     11/21/2011   Recommendation   Closed.........  Agreed
                                Security                        includes
                                Administration                  Sensitive
                                Penetration                     Security
                                Testing of                      Information..
                                Advanced
                                Imaging
                                Technology.
OIG-12-06                      Transportation     11/21/2011   Recommendation   Closed.........  Agreed
                                Security                        includes
                                Administration                  Sensitive
                                Penetration                     Security
                                Testing of                      Information..
                                Advanced
                                Imaging
                                Technology.
OIG-13-91                      Transportation      5/29/2013   We recommend     Closed.........  Agreed
                                Security                        that the
                                Administration'                 Assistant
                                s Screening of                  Administrator,
                                Passengers by                   Office of
                                Observation                     Security
                                Techniques.                     Capabilities
                                                                develop and
                                                                implement a
                                                                comprehensive
                                                                strategic plan
                                                                for the
                                                                Screening of
                                                                Passengers by
                                                                Observation
                                                                Techniques
                                                                (SPOT) program
                                                                that includes--
                                                                Mission,
                                                                goals,
                                                                objectives,
                                                                and a system
                                                                to measure
                                                                performance; A
                                                                trainingstrate
                                                                gy that
                                                                addresses the
                                                                goals and
                                                                objectives of
                                                                the SPOT
                                                                program; A
                                                                plan to
                                                                identify
                                                                external
                                                                partners
                                                                integral to
                                                                program
                                                                success, such
                                                                as law
                                                                enforcement
                                                                agencies, and
                                                                take steps to
                                                                ensure that
                                                                effective
                                                                relationships
                                                                are
                                                                established;
                                                                and A
                                                                financial plan
                                                                that includes
                                                                identification
                                                                of priorities,
                                                                goals,
                                                                objectives,
                                                                and measures;
                                                                needs
                                                                analysis;
                                                                budget
                                                                formulation
                                                                and execution;
                                                                and
                                                                expenditure
                                                                tracking..
OIG-13-91                      Transportation      5/29/2013   We recommend     Closed.........  Agreed
                                Security                        that the
                                Administration'                 Assistant
                                s Screening of                  Administrator,
                                Passengers by                   Office of
                                Observation                     Security
                                Techniques.                     Capabilities
                                                                develop and
                                                                implement
                                                                controls to
                                                                ensure
                                                                completeness,
                                                                accuracy,
                                                                authorization,
                                                                and validity
                                                                of referral
                                                                data entered
                                                                into the
                                                                Performance
                                                                Measurement
                                                                Information
                                                                System..
OIG-13-91                      Transportation      5/29/2013   We recommend     Closed.........  Agreed
                                Security                        that the
                                Administration'                 Assistant
                                s Screening of                  Administrator,
                                Passengers by                   Office of
                                Observation                     Security
                                Techniques.                     Capabilities
                                                                develop and
                                                                implement a
                                                                plan that
                                                                provides
                                                                recurrent
                                                                training to
                                                                Behavior
                                                                Detection
                                                                Officer (BDO)
                                                                instructors
                                                                and BDOs..
OIG-13-91                      Transportation      5/29/2013   We recommend     Closed.........  Agreed
                                Security                        that the
                                Administration'                 Assistant
                                s Screening of                  Administrator,
                                Passengers by                   Office of
                                Observation                     Security
                                Techniques.                     Capabilities
                                                                develop and
                                                                implement a
                                                                plan to assess
                                                                BDO instructor
                                                                performance in
                                                                required core
                                                                competencies
                                                                on a regular
                                                                basis..
OIG-13-91                      Transportation      5/29/2013   We recommend     Closed.........  Agreed
                                Security                        that the
                                Administration'                 Assistant
                                s Screening of                  Administrator,
                                Passengers by                   Office of
                                Observation                     Security
                                Techniques.                     Capabilities
                                                                monitor and
                                                                track the use
                                                                of BDOs for
                                                                non-SPOT
                                                                related duties
                                                                to ensure BDOs
                                                                are used in a
                                                                cost-effective
                                                                manner and in
                                                                accordance
                                                                with the
                                                                mission of the
                                                                SPOT program..
OIG-13-91                      Transportation      5/29/2013   We recommend     Closed.........  Agreed
                                Security                        that the
                                Administration'                 Assistant
                                s Screening of                  Administrator,
                                Passengers by                   Office of
                                Observation                     Security
                                Techniques.                     Capabilities
                                                                develop and
                                                                implement a
                                                                process for
                                                                identifying
                                                                and addressing
                                                                issues that
                                                                may directly
                                                                affect the
                                                                success of the
                                                                SPOT program
                                                                such as the
                                                                selection,
                                                                allocation,
                                                                and
                                                                performance of
                                                                BDOs..
OIG-13-99                      Transportation      6/20/2013   We recommend     Closed.........  Agreed
                                Security                        that the
                                Administration'                 Transportation
                                s Screening                     Security
                                Partnership                     Administration
                                Program.                        Deputy
                                                                Administrator
                                                                expedite
                                                                developing and
                                                                implementing
                                                                procedures to
                                                                ensure that
                                                                decisions on
                                                                Screening
                                                                Partnership
                                                                Program
                                                                applications
                                                                and
                                                                procurements
                                                                are fully
                                                                documented
                                                                according to
                                                                applicable
                                                                Department and
                                                                Federal
                                                                guidance..
OIG-13-99                      Transportation      6/20/2013   We recommend     Closed.........  Agreed
                                Security                        that the
                                Administration'                 Transportation
                                s Screening                     Security
                                Partnership                     Administration
                                Program.                        Deputy
                                                                Administrator
                                                                establish and
                                                                implement
                                                                quality
                                                                assurance
                                                                procedures to
                                                                ensure that
                                                                the most
                                                                relevant and
                                                                accurate
                                                                information is
                                                                used when
                                                                determining
                                                                eligibility
                                                                and approving
                                                                airports'
                                                                participation
                                                                in the
                                                                Screening
                                                                Partnership
                                                                Program..
OIG-13-20                      Transportation      9/16/2013   We recommend     Closed.........  Agreed
                                Security                        that the
                                Administration'                 Deputy
                                s Deployment                    Administrator,
                                and Use of                      Transportation
                                Advanced                        Security
                                Imaging                         Administration
                                Technology.                     : Develop and
                                                                approve a
                                                                single,
                                                                comprehensive
                                                                deployment
                                                                strategy that
                                                                addresses
                                                                short- and
                                                                long term
                                                                goals for
                                                                screening
                                                                equipment..
OIG-13-120                     Transportation      9/16/2013   We recommend     Closed*........  Agreed
                                Security                        that the
                                Administration'                 Deputy
                                s Deployment                    Administrator,
                                and Use of                      Transportation
                                Advanced                        Security
                                Imaging                         Administration
                                Technology.                     : Develop and
                                                                implement a
                                                                disciplined
                                                                system of
                                                                internal
                                                                controls from
                                                                data entry to
                                                                reporting to
                                                                ensure PMIS
                                                                data
                                                                integrity..
OIG-14-142                     (U)                  9/9/2014   This             Closed.........  Agreed
                                Vulnerabilities                 recommendation
                                Exist in TSA's                  is classified..
                                Checked Baggage
                                Screening
                                Operations.
OIG-14-142                     (U)                  9/9/2014   This             Open-Resolved..  Agreed
                                Vulnerabilities                 recommendation
                                Exist in TSA's                  is classified..
                                Checked Baggage
                                Screening
                                Operations.
OIG-14-142                     (U)                  9/9/2014   This             Closed*........  Agreed
                                Vulnerabilities                 recommendation
                                Exist in TSA's                  is classified..
                                Checked Baggage
                                Screening
                                Operations.
OIG-14-142                     (U)                12/16/2014   This              Open--Resolved  Agreed
                                Vulnerabilities                 recommendation
                                Exist in TSA's                  is classified..
                                Checked Baggage
                                Screening
                                Operations.
OIG-14-142                     (U)                12/16/2014   This             Open-Unresolved  Agreed
                                Vulnerabilities                 recommendation
                                Exist in TSA's                  is classified..
                                Checked Baggage
                                Screening
                                Operations.
OIG-14-153                     Use of Risk          9/9/2014   Recommendation   Open-Resolved..  Agreed**
                                Assessment                      includes
                                within Secure                   Sensitive
                                Flight.                         Security
                                                                Information..
OIG-14-153                     Use of Risk          9/9/2014   Recommendation   Closed.........  Agreed
                                Assessment                      includes
                                within Secure                   Sensitive
                                Flight.                         Security
                                                                Information..
OIG-14-153                     Use of Risk          9/9/2014   Recommendation   Closed*........  Agreed**
                                Assessment                      includes
                                within Secure                   Sensitive
                                Flight.                         Security
                                                                Information..
OIG-15-29                      Security            1/28/2015   Recommendation   Open-Unresolved  Disagreed
                                Enhancements                    includes
                                Needed to the                   Sensitive
                                TSA PreCheckTM                  Security
                                Initiative.                     Information..
OIG-15-29                      Security            1/28/2015   Recommendation   Open-Resolved..  Agreed
                                Enhancements                    includes
                                Needed to the                   Sensitive
                                TSA PreCheckTM                  Security
                                Initiative.                     Information..
OIG-15-29                      Security            1/28/2015   Recommendation   Open-Resolved..  Agreed
                                Enhancements                    includes
                                Needed to the                   Sensitive
                                TSA PreCheckTM                  Security
                                Initiative.                     Information..
OIG-15-29                      Security            1/28/2015   Recommendation   Open-Resolved..  Agreed
                                Enhancements                    includes
                                Needed to the                   Sensitive
                                TSA PreCheckTM                  Security
                                Initiative.                     Information..
OIG-15-29                      Security            1/28/2015   Recommendation   Open-Resolved..  Agreed**
                                Enhancements                    includes
                                Needed to the                   Sensitive
                                TSA PreCheckTM                  Security
                                Initiative.                     Information..
OIG-15-29                      Security            1/28/2015   Recommendation   Open-Resolved..  Agreed
                                Enhancements                    includes
                                Needed to the                   Sensitive
                                TSA PreCheckTM                  Security
                                Initiative.                     Information..
OIG-15-29                      Security            1/28/2015   Recommendation   Open-Resolved*.  Agreed
                                Enhancements                    includes
                                Needed to the                   Sensitive
                                TSA PreCheckTM                  Security
                                Initiative.                     Information..
OIG-15-29                      Security            1/28/2015   Recommendation   Closed*........  Agreed**
                                Enhancements                    includes
                                Needed to the                   Sensitive
                                TSA PreCheckTM                  Security
                                Initiative.                     Information..
OIG-15-29                      Security            1/28/2015   Recommendation   Open-Resolved..  Agreed**
                                Enhancements                    includes
                                Needed to the                   Sensitive
                                TSA PreCheckTM                  Security
                                Initiative.                     Information..
OIG-15-29                      Security            1/28/2015   We recommend     Open-Resolved*.  Agreed**
                                Enhancements                    that the TSA
                                Needed to the                   Assistant
                                TSA PreCheckTM                  Administrator
                                Initiative.                     for the Office
                                                                of
                                                                Intelligence
                                                                and Analysis:
                                                                Employ
                                                                exclusion
                                                                factors to
                                                                refer TSA
                                                                PreCheck 
                                                                passengers to
                                                                standard
                                                                security lane
                                                                screening at
                                                                random
                                                                intervals..
OIG-15-29                      Security            1/28/2015   Recommendation   Closed*........  Agreed
                                Enhancements                    includes
                                Needed to the                   Sensitive
                                TSA PreCheckTM                  Security
                                Initiative.                     Information..
OIG-15-29                      Security            1/28/2015   Recommendation   Closed*........  Agreed
                                Enhancements                    includes
                                Needed to the                   Sensitive
                                TSA PreCheckTM                  Security
                                Initiative.                     Information..
OIG-15-29                      Security            1/28/2015   We recommend     Open-Resolved..  Agreed**
                                Enhancements                    that the TSA
                                Needed to the                   Assistant
                                TSA PreCheckTM                  Administrator
                                Initiative.                     for the Office
                                                                of Security
                                                                Operations:
                                                                Develop and
                                                                implement a
                                                                strategy to
                                                                address the
                                                                TSA PreCheck 
                                                                lane covert
                                                                testing
                                                                results..
OIG-15-29                      Security            1/28/2015   Recommendation   Open-Resolved..  Agreed**
                                Enhancements                    includes
                                Needed to the                   Sensitive
                                TSA PreCheckTM                  Security
                                Initiative.                     Information..
OIG-15-29                      Security            1/28/2015   We recommend     Open-Resolved..  Agreed
                                Enhancements                    that the TSA
                                Needed to the                   Assistant
                                TSA PreCheckTM                  Administrator
                                Initiative.                     for the Office
                                                                of
                                                                Intelligence
                                                                and Analysis:
                                                                Provide an
                                                                explanation of
                                                                TSA PreCheck 
                                                                rules and
                                                                responsibiliti
                                                                es to all
                                                                enrollment
                                                                center
                                                                applicants and
                                                                include this
                                                                information in
                                                                eligibility
                                                                letters..
OIG-15-29                      Security            1/28/2015   We recommend     Open-Resolved..  Agreed**
                                Enhancements                    that the TSA
                                Needed to the                   Assistant
                                TSA PreCheckTM                  Administrator
                                Initiative.                     for the Office
                                                                of
                                                                Intelligence
                                                                and Analysis:
                                                                Coordinate
                                                                with Federal
                                                                Government and
                                                                private
                                                                partners to
                                                                ensure all TSA
                                                                PreCheck 
                                                                eligible
                                                                populations
                                                                receive the
                                                                rules and
                                                                responsibiliti
                                                                es when
                                                                notifying
                                                                participants
                                                                of
                                                                eligibility..
OIG-15-29                      Security            1/28/2015   We recommend     Open-Resolved..   Agreed
                                Enhancements                    that the TSA
                                Needed to the                   Chief Risk
                                TSA PreCheckTM                  Officer:
                                Initiative.                     Develop
                                                                consolidated
                                                                guidance
                                                                outlining
                                                                processes and
                                                                procedures for
                                                                all offices
                                                                involved in
                                                                the TSA
                                                                PreCheck 
                                                                initiative..
OIG-15-45                      Allegations of      3/16/2015   Recommendation   Open-Unresolved  Disagreed
                                Granting                        includes
                                Expedited                       Sensitive
                                Screening                       Security
                                through TSA                     Information..
                                PreCheck
                                Improperly (OSC
                                File No. DI-14-
                                3679).
OIG-15-45                      Allegations of      3/16/2015   We recommend     Closed*........  Agreed
                                Granting                        that the TSA
                                Expedited                       Assistant
                                Screening                       Administrator
                                through TSA                     for Security
                                PreCheck                        Operations:
                                Improperly (OSC                 Modify
                                File No. DI-14-                 standard
                                3679).                          operating
                                                                procedures to
                                                                clarify
                                                                Transportation
                                                                Security
                                                                Officer (TSO)
                                                                and
                                                                supervisory
                                                                TSO authority
                                                                to refer
                                                                passengers
                                                                with TSA
                                                                PreCheck
                                                                boarding
                                                                passes to
                                                                standard
                                                                screening
                                                                lanes when
                                                                they believe
                                                                that the
                                                                passenger
                                                                should not be
                                                                eligible for
                                                                TSA PreCheck
                                                                screening..
OIG-15-86                      The                  5/6/2015   We recommend     Open-Resolved*.  Agreed
                                Transportation                  that TSA's
                                Security                        Office of
                                Administration                  Security
                                Does Not                        Capabilities
                                Properly Manage                 and Office of
                                Its Airport                     Security
                                Screening                       Operations
                                Equipment                       develop and
                                Maintenance                     implement a
                                Program.                        preventive
                                                                maintenance
                                                                validation
                                                                process to
                                                                verify that
                                                                required
                                                                routine
                                                                maintenance
                                                                activities are
                                                                completed
                                                                according to
                                                                contractual
                                                                requirements
                                                                and
                                                                manufacturers'
                                                                specifications
                                                                . These
                                                                procedures
                                                                should also
                                                                include
                                                                instruction
                                                                for
                                                                appropriate
                                                                TSA airport
                                                                personnel on
                                                                documenting
                                                                the
                                                                performance of
                                                                Level
                                                                1preventive
                                                                maintenance
                                                                actions..
OIG-15-86                      The                  5/6/2015   We recommend     Open-Resolved*.  Agreed
                                Transportation                  that TSA's
                                Security                        Office of
                                Administration                  Security
                                Does Not                        Capabilities
                                Properly Manage                 and Office of
                                Its Airport                     Security
                                Screening                       Operations:
                                Equipment                       Develop and
                                Maintenance                     implement
                                Program.                        policies and
                                                                procedures to
                                                                ensure that
                                                                local TSA
                                                                airport
                                                                personnel
                                                                verify and
                                                                document
                                                                contractors'
                                                                completion of
                                                                corrective
                                                                maintenance
                                                                actions. These
                                                                procedures
                                                                should also
                                                                include
                                                                quality
                                                                assurance
                                                                steps that
                                                                would ensure
                                                                the integrity
                                                                of the
                                                                information
                                                                collected..
OIG-15-86                      The                  5/6/2015   We recommend     Open-Resolved*.  Agreed
                                Transportation                  TSA's Office
                                Security                        of Acquisition
                                Administration                  enhance future
                                Does Not                        screening
                                Properly Manage                 equipment
                                Its Airport                     maintenance
                                Screening                       contracts by
                                Equipment                       including
                                Maintenance                     penalties for
                                Program.                        noncompliance
                                                                when it is
                                                                determined
                                                                that either
                                                                preventive or
                                                                corrective
                                                                maintenance
                                                                has not been
                                                                completed
                                                                according to
                                                                contractual
                                                                requirements
                                                                and
                                                                manufacturers'
                                                                specifications
                                                                ..
----------------------------------------------------------------------------------------------------------------
*These recommendations were either resolved or closed within the last 6 months.
**TSA management changed their response from disagreed to agreed.

                                 ______
                                 
                               appendix c
                  current and planned oig work on tsa
                         projects in-progress:

------------------------------------------------------------------------
             Project Topic                          Objective
------------------------------------------------------------------------
TSA Security Vetting of Passenger        Determine the extent to which
 RailReservation Systems                  TSA has policies, processes,
                                          and oversight measures to
                                          improve security at the
                                          National Railroad Passenger
                                          Corporation (AMTRAK).
Reliability of TWIC Background Check     Determine whether the screening
 Process                                  process for the Transportation
                                          Worker Identification
                                          Credential program (TWIC) is
                                          operating effectively and
                                          whether the program's
                                          continued eligibility
                                          processes ensure that only
                                          eligible TWIC card holders
                                          remain eligible.
TSA's Security Technology                Determine whether TSA has
 IntegratedProgram (STIP)                 incorporated adequate IT
                                          security controls for
                                          passenger and baggage
                                          screening STIP equipment to
                                          ensure it is performing as
                                          required.
TSA's Controls Over Access Media Badges  Identify and test selected
                                          controls over access media
                                          badges issued by airport
                                          operators.
TSA's I11Risk-Based Strategy             Determine the extent to which
                                          TSA's intelligence-driven,
                                          risk-based strategy informs
                                          security and resource
                                          decisions to protect the
                                          traveling public and the
                                          Nation's transportation
                                          systems.
TSA's Office of Human Capital Contracts  Determine whether TSA's human
                                          capital contracts are managed
                                          effectively, comply with DHS'
                                          acquisition guidelines, and
                                          are achieving expected goals.
------------------------------------------------------------------------

                           upcoming projects:

------------------------------------------------------------------------
             Project Topic                          Objective
------------------------------------------------------------------------
Federal Air Marshal Service's Oversight  Determine whether the Federal
 of Civil Aviation Security               Air Marshal Service adequately
                                          manages its resources to
                                          detect, deter, and defeat
                                          threats to the civil aviation
                                          system.
TSA Carry-On BaggagePenetration Testing  Determine the effectiveness of
                                          TSA's carry-on baggage
                                          screening technologies and
                                          checkpoint screener
                                          performance in identifying and
                                          resolving potential security
                                          threats at airport security
                                          checkpoints.
Airport Security Capping Report          Synthesize the results of our
                                          airport security evaluations
                                          into a capping report that
                                          groups and summarizes
                                          identified weaknesses and root
                                          causes and recommends how TSA
                                          can systematically and
                                          proactively address these
                                          issues at airports nationwide.
TSA's Classification Program             Determine whether TSA is
                                          effectively managing its
                                          classification program and its
                                          use of the Sensitive Security
                                          Information designation.
TSA's Office of Intelligence and         Determine whether TSA's Office
 Analysis                                 of Intelligence and Analysis
                                          is effectively meeting its
                                          mission mandates.
------------------------------------------------------------------------


    Senator Hoeven. Thank you, Mr. Roth, and at this point I 
would turn to Administrator Neffenger.

              SUMMARY STATEMENT OF HON. PETER V. NEFFENGER

    Mr. Neffenger. Thank you. Good morning, Chairman Hoeven, 
Ranking Member Shaheen, members of the subcommittee. Thank you 
for the opportunity to testify today and to tell you of our 
response to the recent challenges that Inspector General Roth 
has highlighted.
    TSA at its core is a counterterrorism organization, an 
instrument of national power to deter and detect threats and to 
protect legitimate trade and travel. We have a no fail mission 
to protect our transportation system. This is a mission for 
which the consequences of a successful attack overwhelm the 
risk equation, and for which we must ensure we deliver success. 
This critically important core mission is my highest priority, 
and I will tell you that I was greatly disturbed by the 
inspector general's findings, which came to light during my 
confirmation process.
    As I appear before you today, I am in the middle of my 
third month on the job. In that 3-month period, I have traveled 
extensively to airports and Federal Air Marshal Service offices 
across the country. I even managed to get over and visit with a 
few of my counterparts in Europe. And I have been thoroughly 
impressed with our professionals who occupy our ranks, our 
officers, our air marshals, inspectors, and other employees who 
swore an oath to serve their Nation in a mission that 
encounters nearly 2 million travelers per day in the aviation 
sector alone. I have had time to become more familiar with the 
challenges facing the agency and to develop a series of 
immediate priorities. One of those is to pursue solutions to 
the recent covert testing failures.
    Overall, there are several critical elements that are 
essential to improving screening operations. First, we must 
ensure the appropriate measures of effectiveness are in place 
to drive an institutional focus on our primary mission. What we 
measure is what our employees will pay attention to, so it is 
imperative that we get our measures correct. Second, we must 
employ a culture of operational evolution, one that constantly 
reassesses assumptions, plans, and processes, and it must be 
able to rapidly field new concepts of operation. And finally, 
we must deliver an effective system and earn the confidence of 
the traveling public, and this will only come through 
competence, discipline, performance, and professionalism. I 
have conveyed these standards to our workforce, and I commit to 
you that I will relentlessly pursue these objectives.
    We continue to face an adversary intent on attacking the 
transportation sector, an adversary who is adaptive and 
patient, who presents threats that are complex, decentralized, 
and evolving, and these are TSA's most pressing challenges. 
They require a renewed focus on our security mission. We face a 
critical turning point in evolving TSA, both to address the 
findings of the inspector general's report and to begin our 
investment in security technologies that can propel us into the 
future.
    Aviation security includes a range of capabilities, some 
seen, many unseen, and every day we employ invaluable tools. 
Our intelligence experts, passenger screening canines, 
behavioral detection, Federal air marshals, and many others 
that protect the transportation system that as recent and prior 
tests show, we must continue to improve our effectiveness in 
checkpoint screening, which is the fundamental element of the 
passenger screening process.
    I want to thank Inspector General Roth for his review. I 
met with him prior to my nomination, and I met with him as the 
administrator to relay the seriousness with which I take his 
work, and to gain his continued insights. My staff has met with 
his inspection team multiple times following his screening 
assessment, and his team has been invaluable in helping us to 
identify root causes.
    So in response to these findings, TSA implemented an 
immediate action plan. The plan ensures leadership 
accountability, improves alarm resolution, increases 
effectiveness and deterrence, increases threat testing, and 
strengthens procedures.
    We have also responded vigorously to Secretary Johnson's 
10-point plan to review and assess screening operations, 
including mission-sensitive training for the entire screening 
workforce, which occurred over the past 2 months. We will 
complete that as of the end of this week. Testing and improving 
the technology, and implementing new procedures and explosion 
detection capabilities. We continue to implement this plan of 
action, and we will continue to provide regular updates to the 
Secretary and to our oversight committees in the Congress.
    Of the utmost concern is determining the root causes for 
the failures noted. Our conclusion is that the screening 
effectiveness challenges were not merely a performance problem, 
not merely a process problem, nor were they a failure 
principally of the advanced imaging technology. Indeed, AITs 
have greatly enhanced our ability to detect non-metallic 
threats, and they continue to perform to expected standards 
when used properly.
    Strong drivers of the problem include leadership focus, 
environmental influences, and gaps in system design and 
processes. A disproportionate focus on speed and efficiency in 
screening operations rather than security effectiveness 
powerfully influenced organizational culture and officer 
performance. As a result, across TSA there was significant 
pressure to clear passengers quickly, often at the risk of not 
diligently resolving alarms.
    Our analysis also revealed that our officers did not fully 
understand the capabilities and limitations of the equipment 
that they were using, and several procedures were inadequate to 
resolve alarms. We have addressed these, and we have trained 
our officers to understand and to use the equipment properly.
    Solutions to these challenges require a renewed focus on 
security; more streamlined, more effective procedures; 
investments in technology; realistic and standardized training, 
and new balance between effectiveness and efficiency, and 
support for our frontline officers. We will continue to partner 
with the airlines and with airport operators in the trade 
industry to identify solutions that can reduce the stress on 
the checkpoint, and we must rightsize and resource TSA 
appropriately.
    Our near-term solutions will halt further reductions in 
officer staffing to support screening operations; provide 
consistent, high-quality training at a centralized location; 
and enhance our technology at checkpoints. With your support we 
can fund the majority of these investments using base 
resources.
    As noted, a key element of our solution is to halt further 
reductions in our frontline screening workforce. Staffing 
levels for fiscal year 2016 planned nearly 2 years ago presumed 
a significant increase in the vetted traveling population, 
PreCheck passengers, which, combined with the practice referred 
to as management inclusion, could have allowed for a smaller 
screening workforce.
    Budgeting assumptions for fiscal year 2016 also predated 
the rise of ISIL (Islamic State of Iraq and the Levant) and the 
renewed transportation security threats we face today. Thus, I 
am asking that we hold staffing at current levels as of summer 
2015, which is about 5,600 below where we were in 2011, and 
includes fiscal year 2016 reductions that have already been 
taken in certain aspects of our workforce.
    Our mission-essentials training conducted the past 2 months 
with every frontline officer and leader across TSA has helped 
to reset our focus on security effectiveness, and most 
critically we have enhanced our officers' knowledge of the 
screening systems they employ. And I have met with our officers 
in airports across the country and attended the training 
sessions myself. I have heard repeatedly how valuable this 
information is to them.
    Our new officer training across the country requires 
greater consistency and efficiency in its delivery, and we must 
do more to establish the professional foundation that is 
required of a high-performing counterterrorism organization. As 
such, I am committed to expanding our existing TSA Academy at 
the Federal Law Enforcement Training Center (FLETC) in Glynco, 
Georgia, and plan to send, if approved, all new hire 
transportation security officers (TSOs) to TSO basic training 
beginning in January 2016. Centralized training in a formal, 
professional academy ensures consistency and professionalism, 
and produces greater enthusiasm, increased confidence in one's 
skills, dedication, and connectedness to a common agency 
culture and increased focus on mission. The Senate mark, when 
added to existing base resources, would fund this training.
    We have two existing business case analyses. They were 
performed in 2008 and 2011. My staff is updating those at this 
moment. I will provide both of those to you and your staff once 
we have completed that task. And we have hosted eight prototype 
courses this past year at FLETC to validate the concept.
    I am deeply committed to this effort because I have seen 
the value a common foundation of training, culture, and 
operational focus can have on a distributed workforce during my 
34 years in the United States Coast Guard. This initiative will 
improve our mission focus, and we expect it will increase our 
ability to retain and lead a more highly motivated and mission-
ready workforce.
    Finally, we are asking for funding for critical AIT 
technology software and hardware upgrades. These investments 
are essential to our effectiveness, which I would be pleased to 
discuss in detail in a classified setting.
    [The statement follow:]
               Prepared Statement of Hon. Peter Neffenger
    Good morning Chairman Hoeven, Ranking Member Shaheen, and 
distinguished members of the Subcommittee. Thank you for the 
opportunity to testify in my new role as Administrator of the 
Transportation Security Administration (TSA).
    Since its creation following the terrorist attacks of September 11, 
2001, TSA has played an invaluable role in protecting the traveling 
public. Fourteen years after the 9/11 attacks, we face threats more 
dangerous than at any time in the recent past. Terrorist groups and 
aspiring violent extremists, inspired by messages of hatred and 
violence, remain intent on striking our Nation's aviation system as 
well as other transportation modes. The threat is decentralized, 
diffuse, and quite complex.
    These persistent and evolving threats are TSA's most pressing 
challenge and require an intense and sustained focus on our security 
missions. We remain deeply committed to ensuring that TSA remains a 
high-performing, risk-based intelligence-driven counterterrorism 
organization. We are working diligently to ensure we recruit, train, 
develop, and lead a mission-ready and highly-capable workforce, placing 
a premium on professional values and personal accountability. Further, 
we will pursue advanced and innovative capabilities that our mission 
requires to deter, detect, and disrupt threats to our Nation's 
transportations systems, with a clear understanding that we must 
continue to optimize today's capabilities while envisioning the 
checkpoint of the future.
    I am intently focused on leading TSA strategically, developing and 
supporting our workforce, and investing appropriately, to deliver on 
our vital security mission.
                improving aviation screening operations
    My highest priority for TSA is determining root causes and 
implementing solutions to address the recent covert testing of TSA's 
checkpoint operations and technology conducted by the Department of 
Homeland Security (DHS) Office of Inspector General (OIG). I was 
greatly disturbed by TSA's failure rate on these tests, and have met 
with the Inspector General on several occasions to better understand 
the nature of the failures and the scope of the corrective actions 
needed.
    Screening operations are a core mission of TSA. In fiscal year 
2014, our officers screened approximately 660 million passengers and 
nearly 2 billion carry-on and checked bags. Through their diligent 
daily efforts, our officers prevented over 180,000 dangerous and/or 
prohibited items, including over 2,200 firearms, from being carried 
onto planes. In addition, our workforce vetted a daily average of six 
million air passengers against the U.S. Government's Terrorist 
Screening Database, preventing those who may wish to do us harm from 
boarding aircraft, and conducting enhanced screening of passengers and 
their baggage prior to allowing them to board an aircraft. In 
conjunction with these screening efforts, and using intelligence-driven 
analysis, TSA's Federal Air Marshals also protected thousands of 
flights. To ensure compliance with aviation security requirements, in 
fiscal year 2014 TSA Inspectors completed over 1,054 airport 
inspections, nearly 18,000 aircraft operator inspections, and almost 
3,000 foreign air carrier inspections to ensure compliance with 
aviation security requirements. Still, as recent and prior testing 
shows, we must continue to formulate solutions that will enhance our 
effectiveness at checkpoint screening operations.
    It is important to acknowledge that the OIG covert tests, as a part 
of their design, focused on a discrete segment of TSA's myriad 
capabilities of detecting and disrupting threats to aviation security. 
TSA conducts similar, more extensive testing that is part of a 
deliberate process designed to defeat and subsequently improve our 
performance, processes, and screening technologies. TSA's covert 
testing program, along with the OIG's covert testing, provides 
invaluable lessons learned, highlighting areas in which the agency 
needs improvement in detecting threats. Such testing is an important 
element in the continual evolution of aviation security.
    As we pursue solutions to the challenges presented by recent and 
on-going covert testing, there are several critical concepts that must 
be in place. TSA must ensure that its value proposition is well 
defined, clearly communicated, understood and applied across the entire 
workforce and mission enterprise. From my first day on the job, I have 
made it clear that we are first and foremost a security organization. 
Our mission is to deter, detect, and disrupt threats, and we must 
ensure every officer, inspector, air marshal, and member of our agency 
remains laser-focused on this mission. In addition, we must ensure the 
appropriate measures of effectiveness are in place to drive an 
institutional focus on the primary security objectives for all modes of 
transportation, and renewed emphasis on aviation measures.
    We have demonstrated our ability to efficiently screen passengers: 
however, it is clear that we now must improve our effectiveness. By 
focusing on the basic fundamentals of security screening, and by 
readjusting the measurements of success to focus on security rather 
than speed, and by measuring what we value most, we can adjust the 
institutional focus and adapt the culture to deliver success. TSA must 
adopt a culture of operational evolution, one that constantly questions 
assumptions, plans, and processes, and is able to rapidly field new 
concepts of operation, performance standards and capabilities, 
particularly given the persistent and adaptive enemy we face.
    To drive these important changes, it is essential to understand and 
assess appropriately the effectiveness of our aviation security 
enterprise, to rigorously pursue initiatives to quickly close 
capability and security gaps, and employ our own covert testing and 
vulnerability assessments. Delivering an effective security system and 
earning the confidence of the traveling public will come only through 
competence, disciplined performance, successful results, and 
professionalism. These imperatives are essential to address the 
immediate challenges, and more broadly, to accomplish the important 
mission entrusted to TSA.
    In late May, in response to the OIG initial findings, TSA developed 
and implemented an immediate action plan built on its understanding of 
the known vulnerabilities in checkpoint operations. Consisting of 
dozens of individual actions, it was designed to:
    1) ensure leadership accountability;
    2) improve alarm resolution;
    3) increase effectiveness and deterrence;
    4) increase threat testing to sharpen officer performance;
    5) strengthen standard operating procedures;
    6) improve the Advanced Imaging Technology (AIT) system;
    7) deploy additional resolution tools; and
    8) improve human factors, including enhanced training and 
operational responses.
    Scheduled for completion in March 2016, TSA is actively engaged in 
implementing this plan of action and provides regular updates to the 
Secretary of Homeland Security as well as frequent updates to the 
Congress.
    There are a number of immediate actions that have been completed, 
including the following: 1) requiring screening leadership at each 
airport to oversee AIT operations to ensure compliance with standard 
procedures; 2) requiring each officer to complete initial video-based 
training to reinforce proper alarm resolution conversations; 3) 
conducting leadership and officer same-day debriefs for threat inject 
testing and lessons learned; and 4) performing daily operational 
exercises and reinforcement of proper pat down procedures at least once 
per shift to ensure optimal TSO performance.
                   secretary johnson's ten-point plan
    In addition to the TSA action plan, Department of Homeland Security 
Secretary Jeh Johnson directed a series of actions, which in 
cooperation with TSA, constituted a ten-point plan to address these 
findings. TSA is now working aggressively to accomplish these actions. 
The plan includes the following:
  --Briefing all Federal Security Directors at airports nationwide on 
        the OIG's preliminary test results to ensure leadership 
        awareness and accountability. This was completed in May and 
        continues regularly. Last week I also convened the leadership 
        of TSA--from across the agency and in every mission area--to 
        discuss our progress, to clearly convey my expectations, and to 
        outline my vision for the evolution of our counterterrorism 
        agency.
  --Training every Transportation Security Officer (TSO) and supervisor 
        to address the specific vulnerabilities identified by the OIG 
        tests. This training also is intended to reemphasize the value 
        and underscore the importance we place on the security mission. 
        The training will reemphasize the threat we face, the design of 
        our security system, integrating technology with human 
        expertise, the range of tools we employ to detect threats, and 
        the essential role our officers perform in resolving alarms. 
        Fundamentally, this training is intended to explain the ``why'' 
        behind our renewed and intense focus on security effectiveness. 
        We are also training supervisors and leaders to ensure they 
        appreciate and support the shift in emphasis. Most important, 
        we are asking our supervisors to recognize their critical role 
        in supporting our officers' renewed focus on alarm resolution. 
        TSA is now implementing this training in a phased approach, 
        which began May 29, 2015 and is to be completed by the end of 
        September 2015. Over 98 percent of our workforce had completed 
        training as of this hearing.
  --Increasing manual screening measures, including reintroducing hand-
        held metal detectors to resolve alarms at the checkpoint. This 
        has been underway since mid-June and reinforces our ability to 
        detect the full range of threats.
  --Increasing the use of random explosives trace detection, which also 
        started in mid-June, enhancing detection capabilities to a 
        range of threat vectors.
  --Re-testing and re-evaluating screening equipment to measure current 
        performance standards. We are retesting the systems in the 
        airports tested by the Inspector General and assessing 
        performance of the field systems against those in the labs to 
        ensure optimal performance. This testing, which began in June 
        and is ongoing, will help us to more fully understand and 
        strengthen equipment performance across the enterprise.
  --Assessing areas where screening technology equipment can be 
        enhanced. This includes new software, new operating concepts, 
        and technology upgrades in collaboration with our private 
        sector partners.
  --Evaluating the current practice of including non-vetted populations 
        in expedited screening. We continue to take steps to ensure 
        that we have a more fully vetted population of travelers 
        exposed to screening in our expedited lanes. For example, as of 
        September 12th, the practice of Managed Inclusion-2 was phased 
        out of daily operations.
  --Revising TSA's standard operating procedures to include using TSA 
        supervisors to help resolve situations at security checkpoints. 
        On June 26, 2015, TSA began field testing new standard 
        operating procedures at six airports. Lessons learned will be 
        incorporated and deployed nation-wide. This procedure is 
        intended to ensure appropriate resolution techniques are 
        employed in every situation.
  --Continuing covert testing to assess the effectiveness of these 
        actions. For each test, there must be a same-day debrief with 
        the workforce of outcomes and performance along with immediate 
        remediation actions. Expansion of our testing also enhances 
        officer vigilance.
  --Finally, we have responded vigorously by establishing a team of TSA 
        and other DHS officials to monitor implementation of these 
        measures and report to the Secretary and me every two weeks. 
        These updates have been ongoing for the past 2 months.
                         root cause assessment
    DHS and TSA are also committed to resolving the root causes of 
these test failures. A diverse team of DHS leaders, subject matter 
experts, as well as officers and leaders from the frontline workforce 
are examining the underlying problems resulting in our performance 
failures and will make recommendations on system-wide solutions for 
implementations across the agency.
    The team's initial conclusion is that the screening effectiveness 
challenges noted by the Inspector General were not merely a performance 
problem to be solved solely by retraining our officers. Officer 
performance is but one among many of the challenges. TSA frontline 
officers have repeatedly demonstrated during their annual proficiency 
evaluations that they have the knowledge and the skill to perform the 
screening mission well. Nor was this principally a failure of the AIT 
technology. These systems have greatly enhanced TSA's ability to detect 
and disrupt new and evolving threats to aviation. AIT technology 
continues to perform to specification standards when maintained and 
employed properly, and we continue to improve its detection 
capabilities.
    The challenge can be succinctly described as a set of multi-
dimensional factors that have influenced the conduct of screening 
operations, creating a disproportionate focus on efficiency and speed 
in screening operations rather than security effectiveness. These 
challenges range across six dimensions: leadership, technology, 
workforce performance, the environment, operating procedures, and 
system design. Of these six, strong drivers include leadership focus, 
environmental influences, and system design.
    Pressures driven by increasing passenger volume, an increase in 
checkpoint screening of baggage due to fees charged for checked bags as 
well as inconsistent or limited enforcement of size requirements for 
hand-carried bags and the one bag plus one personal item (1+1) 
standard\1\ create a stressed screening environment at airport 
checkpoints. The challenges also include the range of complex 
procedures that we ask our officers to employ, resulting in cognitive 
overload and personnel not properly employing the technology or a 
specific procedure. The limitations of the technology, the systems 
detection standards, TSA officers' lack of training on equipment 
limitations, and procedures that failed to resolve the alarms 
appropriately all undermined our ability to effectively screen, as 
noted by the Inspector General's report.
---------------------------------------------------------------------------
    \1\ The Aircraft Operator Standard Security Program, Dated October 
21, 2013, requires, with some exceptions for crewmembers, medical 
assistance items, musical instruments, duty free items, and 
photographic equipment, that the accessible property for individuals 
accessing the sterile area be limited to one bag plus one personal item 
per passenger (e.g., purse, briefcase, or laptop computer).
---------------------------------------------------------------------------
    A critical component of the problem was confusing messages on the 
values of the institution, as expressed in the metrics used to assess 
effectiveness and leadership performance. As noted, a prior focus on 
measures that emphasized reduced wait times and organizational 
efficiency powerfully influenced screening performance as well as 
organizational culture. As a result, across TSA, leaders' and officers' 
organizational behavior emphasized efficiency outcomes, creating 
pressures to expand the populations receiving expedited screening in 
TSA Pre-Check lanes, even if they had not enrolled in the program, and 
a pressure to clear passengers quickly, at the risk of not diligently 
resolving alarms. The combined effect of these many variables produced 
the performance reported by the Office of the Inspector General.
                         implementing solutions
    Solutions to the challenges facing TSA will require a renewed focus 
on the agency's security mission, a commitment to right-sizing and 
resourcing TSA to effectively secure the aviation enterprise, and an 
industry commitment to incentivizing vetting of passengers as well as 
creating conditions that can decrease the volume and contents of bags 
presented for screening in airports.
    For TSA, we must renew our focus on the fundamentals of security, 
thereby asking our officers and leaders to strike a new balance between 
security effectiveness and line efficiency, to field and diligently 
perform appropriate resolution procedures and to close technology and 
performance gaps. We need our managers and supervisors to support our 
officers when they perform their difficult daily mission. As we move 
forward, we are guided by a principled, strategic approach, with 
specific projects already underway to advance our goal of ensuring we 
deliver on our mission to deter, detect, and disrupt threats to 
aviation.
Redefine Value Proposition
    First, TSA is in the process of ensuring our focus on security 
effectiveness is well defined and applied across the entire workforce 
and mission space. Our ``Mission Essentials--Threat Mitigation'' 
course, being provided to every officer by the end of September, is our 
initial step. We will follow this initial effort with a range of 
initiatives to convey these priorities to leaders and officers using 
additional tools, such as a statement of the Administrator's Intent, 
the National Training Plan, and in our workforce messaging. Redefining 
our values as an agency by focusing on threat mitigation and improving 
TSO awareness and knowledge of the threat will provide a new and acute 
mission focus. Resolving every alarm, with discipline, competence, and 
professionalism are the values we are emphasizing to the workforce. 
From my initial field visits, I can report that our officers are 
hearing, understanding, and applying this new approach.
Communicate New Standards and Expectations
    To communicate these new standards, TSA's Office of Intelligence 
and Analysis is pursuing an information sharing project to expand and 
ensure standardized information and intelligence sharing to frontline 
officers. Expanding the reach of the threat information provided to the 
field, enhancing our officers' awareness and understanding of the 
threat and the critical role they play in interdicting these threats 
creates ownership and a greater commitment to ensuring security 
procedures are followed.
Align Measures of Effectiveness to Standards and Expectations
    TSA's Office of Security Operations is examining and revising the 
current Management Objectives Report to rebalance the field leaders' 
scorecard with security effectiveness measures in addition to some 
preserved efficiency data. We are operating on the premise that what 
wemeasure are the organizational objectives to which our field leaders 
will pay close attention. We expect the first iteration of our new 
measures to be in the field by the end of October 2015.
Design System to Achieve Desired Outcome
    The aviation security system must interdict the full range of 
threats on the Prohibited Items List and evolving threats that require 
our immediate action. Our concept of operations review project, run by 
the Operations Performance and Mission Analysis Divisions, is further 
identifying system wide gaps and vulnerabilities and how to ensure the 
traveling public is exposed to our mission essential detection 
capabilities when transiting the screening checkpoint. The results of 
this analysis may lead to a range of recommended improvements, from 
clarification of pat down procedures to fielding decisions for new 
technologies.
Eliminate Gaps and Vulnerabilities in Achieving Desired End State
    Our work in analyzing the root causes has identified a range of 
vulnerabilities in TSA; however, there is no single office or 
accountable official charged with systemically tracking our 
vulnerability mitigation efforts. Centralizing these activities under a 
single official should drive systemic research, development, and 
fielding of new capabilities. Our TSA Office of the Chief Risk Officer 
is managing this project.
Evaluate Performance by using the new Values, Standards, and 
        Expectations
    To motivate behavior, supervisors must clearly communicate the 
performance objectives they expect from their subordinate officers and 
leaders. Our Chief of Human Capital is working an initiative we are 
calling the ``Performance Evaluation Project,'' which is designed to 
ensure the appropriate focus on desired mission outcomes is imbedded 
within Annual Performance Plans. The field has been notified of the new 
performance expectations and officer performance plans will be in place 
by October 30th, 2015, using these new standards.
Incentivize Performance to Enact Values, Standard, and Expectations
    Several of our field leaders and officers have also recommended a 
Model Transportation Security Officer Project to determine model 
performance criteria. The project is intended to incentivize 
performance and emphasize the values and standards frontline employees 
are expected to uphold across the enterprise. I am a strong proponent 
of incentivizing performance, as this can be a powerful instrument to 
drive employee behaviors. Through these efforts, we intend to convey 
our values, measure them, and evaluate performance against these new 
expectations, uniting the TSA workforce behind critical agency reforms 
that will deliver organizational alignment and strengthen our security 
posture.
    Finally, we will continue to partner with the trade and travel 
industry, the airlines, and airport operators to identify solutions 
that can fundamentally alter the reality on the ground for our 
screening workforce.
    A key element of our solution set will be reassessing and 
establishing the new funding baseline for the screening workforce. 
Prior staffing levels for fiscal year 2016, planned more than a year in 
advance of the covert testing failures, presumed a significant increase 
in the vetted traveling population which, combined with managed 
inclusion, allowed for a smaller workforce. We recommend to the 
Committee that we hold staffing at fiscal year 2015 levels--with 
additional adjustments to support training and operational 
enhancements--to ensure future reductions remain rational choices that 
balance effectiveness with efficiency. We recognize that this 
additional personnel request may require additional funding, and look 
forward to working with the Subcommittee to identify resources to meet 
these emergent requirements. Additionally, we look forward to working 
with the Congress to identify means of adding additional field 
intelligence officers to ensure every field operation is supported with 
a dedicated intelligence officer to facilitate information sharing, and 
to expand our fiscal year 2016 efforts at the TSA Academy to train the 
workforce. Finally, we expect to invest in Advanced Imaging Technology 
detection upgrades based on the OIG findings, requiring authority and 
funds in fiscal year 2016/2017 to support our efforts.
                      mission essentials training
    Given the importance of training to our mission, I would like to 
elaborate on TSA's approach to training following the OIG covert 
testing results. It is critical that we train out these failures so we 
do not repeat the mistakes, including those which could have 
catastrophic consequences. By the end of this September, we will have 
trained the specifics of the failures to every frontline member and 
leader of TSA.
    This training, referred to as ``Mission Essentials--Threat 
Mitigation,'' builds our workforce understanding of the link among 
intelligence, technology and the procedures they perform. As of 
September 29, over 98 percent of the TSO workforce had completed the 
training. The training advances our new value proposition by (1) 
providing a detailed intelligence briefing on the current threat; (2) 
discussing passenger tactics and techniques that may be used to 
dissuade the TSOs from thoroughly performing their screening duties and 
what counter measures they can employ; (3) reviewing recent procedural 
changes for screening individuals who present themselves as having a 
disability; (4) practicing pat-down procedures with the goal of finding 
components of improvised explosive devices; and (5) exploring the 
capabilities and limitations of the checkpoint equipment and how the 
TSO can by following proper procedures. I have been encouraged to see 
our TSOs embracing the principles of Mission Essentials training.
    Through this training, our employees are being taught how to 
respond to social engineering--techniques used by passengers seeking to 
manipulate our screening workforce and avoid regular processes. As I 
meet with these employees in my travels to airports throughout the 
country, I have heard repeatedly that they wished they had been exposed 
to this information before. As such, I have charged TSA's senior 
leaders to plan to send all new-hire TSOs to the TSA Academy at the 
Federal Law Enforcement Training Center in Glynco, GA, for TSO-basic 
training beginning in January 2016. Most of our major counterterrorism 
partners in security and law enforcement send their employees through 
similar type academies to ensure a laser-focus on mission, and we 
should as well. We recognize this initiative may require additional 
resources, and look forward to working with the Committee accordingly.
                          future of screening
    As we envision the future of screening, even in the context of the 
current challenges, I remain a strong proponent of a risk-based 
approach to security. The vast majority of people, goods and services 
moving through our transportation systems are legitimate and pose 
minimal risk. To support our risk-based approach, it is critical to 
continue growing the population of fully vetted travelers, such as 
those participating in TSA Pre3 or in DHS trusted traveler programs. 
In parallel, I am also reviewing expedited screening concepts with the 
intent of moving away from unvetted travelers. This multi-pronged, 
risk-based approach will result in separating known and unknown 
travelers, with known travelers receiving expedited screening and other 
travelers, some high threat, receiving more extensive screening.
    I envision a future where some known travelers will be as vetted 
and trusted as flight crews. Technology on the horizon may support 
passengers becoming their own ``boardingpasses'' by using biometrics, 
such as fingerprint scans, to verify identities linked to Secure 
Flight. The Credential Authentication Technology (CAT) is the first 
step in this process and will provide TSOs with real-time 
authentication of a passenger's identity credentials and travel 
itinerary.
    A second objective is to screen at the ``speed of life'' with an 
integrated screening system that combines metal detection, non-metallic 
anomaly detection, shoe x-ray, and explosive vapor detection. 
Prototypes of these machines exist, which hold great promise for the 
traveling public.
    Purposeful checkpoint and airport designs that facilitate screening 
advances are also a future approach. At Los Angeles International 
Airport (LAX) Tom Bradley International Terminal, recent innovative 
renovations have been completed so that screening operations are 
seamlessly integrated into the movement and flow of the traveling 
public. This effort will continue, with six out of eight terminals at 
LAX scheduled for design and renovation. Other locations, such as 
Dulles International Airport (IAD), have dedicated checkpoints that 
separate expedited screening from other operations, allowing TSOs to 
follow the appropriate concepts of operations with greater focus and 
clarity.
    While all airports may not be able to take the same approach, the 
future of screening is based on fulfilling the promise of risk-based 
security. By increasing the number of fully vetted passengers and 
enhancing the effectiveness and efficiency of physical screening, I am 
committed to refining and advancing our risk-based security strategy. I 
look forward to working with this Committee and the Congress to chart a 
way forward in this regard.
                               conclusion
    Chairman Hoeven, Ranking Member Shaheen, we have an incredible 
challenge ahead of us. Still, I know TSA is up to the task, and will 
adjust its focus from one based on speed and efficiency to one based on 
security effectiveness. We are on the frontlines of a critical 
counterterrorism fight and our workforce is willing and able to do the 
job. I thank you for the opportunity to appear before you today and 
sincerely appreciate your time and attention. I look forward to your 
questions.
                                 ______
                                 
                           dhs oig highlights
covert testing of the transpiration security administration's passenger 
  screening technologies and processes at airport security checkpoints
                          unclassified summary
    The Transportation Security Administration (TSA) conducts or 
oversees passenger checkpoint screening at 450 Federalized airports. 
Passenger checkpoint screening is a process by which passengers are 
inspected to deter, detect, and prevent explosives, incendiaries, 
weapons, or other security threats from entering sterile areas of an 
airport or getting onboard an aircraft.
    As threats to transportation security evolved, TSA needed a 
screening technology to detect nonmetallic threats. TSA developed 
Advanced Imaging Technology (AIT) to screen passengers for both 
metallic and nonmetallic threats concealed under clothing--without 
physical contact. In 2013, TSA equipped all AIT with Automated Target 
Recognition software, which displays a box around anomalies on a 
generic outline of a body.
    Our objective was to determine the effectiveness of TSA's AIT, 
Automated Target Recognition software, and checkpoint screener 
performance in identifying and resolving anomalies and potential 
security threats at airport checkpoints.The compilation of the number 
of tests conducted, names of the test airports, and quantitative and 
qualitative results of our testing is classified or designated as 
Sensitive Security Information. We have shared the information with the 
Department, TSA, and appropriate Congressional committees.
    We made one recommendation that when implemented should strengthen 
the effectiveness of identifying and resolving security threats at 
airport checkpoints.

                   10-POINT SCREENING OPERATIONS PLAN

    Senator Hoeven. Thank you, Administrator Neffenger. Thank 
you, Inspector Roth. We will now go to questions and responses 
in 5-minute rounds.
    And I would like to start with you, Administrator. Pursuant 
to the 10-point plan that the Secretary put forward in June--
and you touched on some of this in your opening comments--has 
the training been completed? Have you put everybody through the 
training? Have you completed updating the operating procedures, 
and have you engaged all of the technology vendors on the 
equipment failures? And the second part is, how are you 
measuring performance--back to the metrics--and whether you 
have achieved the level of performance that you need both in 
terms of safety and in terms of trying to be as convenient as 
possible for the traveling public?
    I know it is kind of a lot, but, again, three legs of the 
stool: specific progress on each one, and how you are measuring 
that both in terms of safety and convenience to the customer?
    Mr. Neffenger. Well, thanks, Mr. Chairman, for the 
question, so let me address each one. So this is the people, 
process, and technology pieces, and I will address each one in 
order.
    So with the people piece, we will this week complete the 
training of our entire frontline workforce. The latest numbers 
I got the latest this morning, we were at about 98 percent, and 
that is of the 41,000-plus screeners that we have, they have 
all been through what we call mission essentials training. That 
is an eight-hour block of time specifically dedicated to 
looking at not just the nature of the failures, but then what 
we do about correcting, by training, those failures.
    So that is looking at the actual specific things that were 
done by the inspector general's team, you know, what items got 
through, what was the nature in which they got through, and how 
were they presented at the checkpoints when they went through.
    The second piece of that was there is--concurrent with the 
training--an update on the current threat situation to refocus 
people on the mission and then to look at what we need to 
change in order to make sure that does not happen again. So 
what were the root causes of that? Some of it--and, again, 
without getting into classified details--has to do with how you 
present yourself in the equipment, how the equipment is used, 
and understanding what the equipment can do and what it cannot 
do.
    So that was the purpose of that 8-hour mission essentials 
training, and, again, everybody has been through that. I also 
required all of the managers to go through that as well, 
including the Federal security directors (FSDs) because I did 
not want this just to be focused on the workforce. The 
management of that workforce has to understand as well what 
those issues were. I will talk about the testing of all that in 
a moment.
    The process piece. I looked at the standard operating 
procedures that we have, and I will tell you I was shocked to 
see how thick these were. So there were some 3,100 separate 
items that we expect that a frontline screening workforce 
officer, a transportation security officer to memorize and to 
remember. That is an impossibility, and I would argue, not 
necessary to meet the mission. So one of the things that we 
have done over the past 6 months is to dramatically streamline 
those procedures to turn them into more of a quick guide, a 
response guide. So we have taken that huge, thick binder and 
turned it into a small binder of operations. I'm happy to share 
that with the committee so that you can see what the changes 
are from what we had then to what we have now. And then train 
to those procedures so that it becomes a very clear and 
straightforward process to follow.
    We have also looked at the way in which we required certain 
actions to take place to resolve alarms. And what we found was 
that for the same type of alarm, we sometimes had multiple 
different processes that we expected people to follow to do 
that. Well, that is just hard to follow, and it is hard to 
remember, and it allows gaps and vulnerabilities to exist.
    We looked at standardizing the way we resolve alarms, 
including when you conduct a pat-down. What is that you are 
doing? What is the purpose of the pat-down? What do we expect 
to find, and what does it mean to actually resolve an alarm and 
not simply go through the motions of resolving the alarm?
    To test all of this, you have got to go back and see 
whether or not you have made any progress, and I have talked to 
Inspector General Roth about the follow-on testing that they 
are doing. We are doing some follow-on testing ourselves. We 
are increasing the rate, type, and detail of our own internal 
covert testing, providing more immediate feedback, and then 
doing an immediate measured assessment of performance so that 
we have a baseline. So we take some of this as a baseline, and 
then we establish a baseline going forward.
    With respect to the technology, I met personally with the 
leadership of the technology manufacturers--the primary 
technology manufacturers, including the manufacturer of the AIT 
machine. They assured me of their commitment to solving some of 
the software challenges. They are working hard on that right 
now. We are working with them. We are holding them to account. 
We are looking forward to some software upgrades that we are 
testing right now. Initial tests are promising. We have to now 
put those into an operational field environment to see how well 
they work. We are also looking at the potential over the coming 
year to do hardware upgrades, which would increase the 
resolution of the machines that we are currently using.
    Again, how we measure that is we have got to go back and 
test it, so there is a tactical measure that has to be done we 
immediately go back and see whether or not devices are able to 
be moved through the checkpoint in a way that they were before.
    I believe that we can--that through a combination of 
training of our people, understanding, you know, how far the 
technology can take you, how does the human piece fill that 
technology gap that will always exist, and then what are the 
processes to streamline them and make them as straightforward 
and as consistent as possible across the enterprise. Then we 
can begin to measure the performance of the system against 
those.
    Senator Hoeven. Senator Shaheen.
    Senator Shaheen. Thank you. Mr. Roth, I just want to 
clarify a couple of things that you said in your testimony. I 
think I understood you to say that you have done 115 reviews 
through the inspector general's office of TSA. I assume that 
has been since the organization or that agency was formed?
    Mr. Roth. That is correct.
    Senator Shaheen. And you also alluded to a very different 
response in--to this audit from some of the previous audits. 
And can you just again make that comparison because I think 
that is really important for the traveling public to hear. And, 
again, to point out, as Administrator Neffenger did, to some 
extent that he was actually not at the head of the organization 
when the audit was done.
    Mr. Roth. That is exactly right. As you noted in your 
opening statement, we actually cut the audit off before its 
planned completion because of some of the results. And I was 
able to personally brief the Secretary and the chief of staff 
on that really within a day or two of us conducting the last 
audit and making the decision that this had to be reported up 
immediately. We could not wait for the draft. You know, what we 
would do is we would write a draft, and there would be a formal 
comment, and then it would come back.
    Literally within 24 hours, there was a meeting with the 
senior leadership at TSA with the Secretary and the Deputy 
Secretary asking some very serious and pointed questions as to 
what was going on. And I was able to brief my auditors on it, 
some of whom had been here since TSA started, and they had 
never seen anything like it. The response was immediate, it was 
unequivocal, and it was highly gratifying, at least from our 
point of view.

          AVIATION SYSTEM SECURITY: WORKING WITH OTHER PLAYERS

    Senator Shaheen. Thank you very much. Administrator 
Neffenger, you talked a little bit about the people, process, 
and technology as the chairman did, and about efforts to 
address all three of those. But as we know, TSA is not the only 
actor when it comes to keeping our transportation systems 
secure. So what are you looking at with respect to airports, 
and air carriers, and the other players in making sure we have 
a secure environment?
    Mr. Neffenger. Well, thank you, Senator, and you are 
absolutely right. You have to look at the entire system. TSA is 
one component of a very large and complex system that is the 
aviation environment. So if we are just talking about the 
aviation sector, there are lots of opportunities for threats to 
enter into that system whether you are talking the passenger 
environment, or the aviation--the operating area environment, 
or the various actors in that environment.
    So the first thing I have done is I have actually met with 
quite a few of the various players and their representatives. 
So I have met with Airports Council International. They 
represent the airports. I have met with a number of airport 
directors in my visits. So I have tried--when I visit an 
airport, I make it a point to meet with the airport director as 
well.
    I met with the Aviation Security Advisory Committee which, 
as you know, was asked by the Secretary earlier this year to 
take a hard look at the trusted work environment as a result of 
some of the challenges that were raised by the operation in 
Atlanta that was uncovered, the smuggling that was uncovered.
    Just this morning, in fact, before this hearing, I met with 
the CEOs of all of the major U.S. airlines along with the CEOs 
of the major cargo airlines to specifically discuss 
collaborating and understanding their role in the security of 
the aviation system. No government agency by itself is going to 
secure this transportation system. You have to have the 
assistance, the cooperation, and the commitment on the part of 
all the other players.
    I will assure you that that commitment and desire to 
collaborate and cooperate is there. I think that in TSA, there 
are--there are lots of places we could continue to improve that 
relationship and to work more closely with the private sector. 
There is nobody with a greater vested interest in the security 
of this system than the people who are operating the system: 
the airlines, the airports, and all the rest.
    So my commitment to them has been to work with them very 
closely, to look for opportunities to advance our security 
systems, to look for creative and innovative approaches, to get 
their help in understanding the system better, to find out 
where we are working well together and where we are not working 
well together.
    So, as I said, as I get smarter in this, I intend to stay 
very connected to the industry that we regulate, that we 
oversee, and that we operate within to ensure that we are an 
effective partner in that in addition to being good at what our 
primary mission is.

                  AVIATION SYSTEM SECURITY: OVERSIGHT

    Senator Shaheen. And so, TSA has a coordination role in 
addressing those kinds of issues, and I agree with you. I think 
the private carriers, the airports, everybody has a stake in 
making sure the system is as safe as possible. But I also 
appreciate that sometimes players may not act always with that 
in mind.
    And so, what kind of responsibility does TSA have when you 
see something that is not being done in a way that you think is 
proper and particularly safe? What can you do, and do you have 
statutory responsibility?
    Mr. Neffenger. We have statutory oversight responsibility 
for the security of the aviation system. And, again, I will 
focus on the aviation system, but much of the attention is for 
the surface transportation world as well.
    As I look at the aviation system, certainly, I think what 
an agency like ours can do best is to ensure a high set of 
standards, that those standards are enforced consistently 
across the system, and that there is a regular oversight of the 
implementation of those standards, even if we are relying upon 
the private sector to implement and manage those.
    I take my experience. When I look back to my experience in 
the maritime sector as a Coast Guard officer, I spent much of 
the latter part of my career in the maritime security world. 
Again, it is a bigger world than there are people in the 
government to oversee it. I think that is okay as long as you 
have got strong and consistent standards and a good oversight 
program there. I think we need to pay attention to that 
oversight rule more consistently, I think, when you look at 
things like the trusted worker population that is the badged 
population.
    It never surprises me to find out we have a criminal 
element in society. It concerns me if we are not doing 
something to identify that criminal element and to wrest it out 
of the environment where we think it could pose the greatest 
challenge and the greatest problem.
    So I am encouraged by the report that the Aviation Security 
Advisory Committee (ASAC) provided, which recommended methods 
for reducing the number of access points, for example, to the 
sterile and secure areas of the airport environment, to do more 
effective randomized routine screening of people who have 
badges. We are working with the FBI to implement what is called 
Rap Back, which is a real-time continuous assessment of 
people's criminal history. We do a real-time assessment of 
their potential connection to known or suspected terrorists, 
but we do not currently do that for criminal history. We are 
doing that on a 2-year basis, so we are piloting some projects 
with them.
    I think that there is more we can do in that environment, 
and as I look at the recommendations that came out of the 
Aviation Security Advisory Committee, there were 28 in total, 
many of them focused directly on this issue you are talking 
about. We are working on a plan to implement those so that you 
do not just receive these recommendations and go, thank you 
very much, and move on. It is very tempting to do that if you 
are not careful.
    So what I want to do is avoid that temptation, and I have 
gone back to the ASAC and said, look, I promise you to come 
forward with next steps, and I will do the same thing for 
oversight committees. You hold yourself accountable by making 
yourself accountable to the people that are asking the 
questions. As I said, as I look forward, I think there is a way 
to do this that can actually significantly improve our ability 
to ensure the safety and security of that operating 
environment.
    Senator Shaheen. Thank you. Thank you, Mr. Chairman.
    Senator Hoeven. Senator Baldwin.

                  INSPECTOR GENERAL'S RECOMMENDATIONS

    Senator Baldwin. Thank you. Let us start with the bigger 
picture. Mr. Roth, I remember when you testified before the 
Homeland Security Committee back in June, and I was struck with 
one of the things that you said in your testimony when 
describing how at the time TSA failed to concur with the 
majority of the inspector general's recommendations regarding 
vulnerabilities with the TSA's expansion of the PreCheck 
program. You said, ``We believe this represents TSA's failure 
to understand the gravity of the situation.''
    Now, Mr. Neffenger, I know he was not speaking about you 
because you were not confirmed yet in this post at the time. 
And I understand that since that time you have agreed with a 
number of the inspector general's recommendations. But I am 
interested in your perspective on the gravity of the security 
situation that we face at TSA. And in light of the numerous 
security shortcomings identified by both the Government 
Accountability Office (GAO) and the inspector general, can you 
explain how you weight those and the necessity to address those 
shortcomings compared to other priorities that the TSA has 
identified internally in terms of you fulfilling your mission?
    Mr. Neffenger. Well, the immediate priority is to address, 
I think, the findings of the inspector general. I absolutely 
agree with him that these were deeply disturbing and troubling, 
and I appreciate the fact that he did come forward right away, 
stopped the audit, and said we have got a problem here. And I 
know that the Secretary took that as seriously, as has already 
been mentioned.
    So you have got to address that first because, first of 
all, I need to fix that. Second, I need to reinstate confidence 
in the traveling public that we know how to do our job. I think 
the good news is you can train out those kinds of failures. It 
is a matter of focus. I really do believe that we suffered from 
a shift in focus from the primary mission to one of efficiency. 
I understand where that came from. We were dealing with long 
wait times and a lot of dissatisfaction.
    But if you are not careful, you can shift it in a way that 
leads to failure, and I think that some of what we saw was a 
result of that. So that is our immediate challenge right now. 
We have to fix that, and I have to test to make sure we 
actually got it fixed, and we are in the process of setting up 
that next series of tests to ensure that.

                PASSENGER SCREENING: PERFORMANCE METRICS

    Senator Baldwin. I want to actually just stop you there 
because we come back over and over again to the pressure and 
the tension between your pressure to clear passengers quickly. 
I know the airlines are watching. Obviously passengers give you 
feedback on their experience and your vital security mission. 
One of the things we heard in our June hearing was just there 
are all sorts of metrics associated with the speed with which 
passengers are processed, and there are not as many except the 
absence of something really bad happening on the other side.
    What more is being done to address that constant tension 
and pressure there? And I would ask both of you if you have 
comments.
    Mr. Neffenger. So you have hit a real key point here, and I 
think it is one worth thinking about for a moment. You are 
right; there is a lot of tension. And the farther away you get 
from something actually happening in a system, the more people 
are inclined to just say, look, this is really just annoying, 
and I would like to get through this system quickly. I get 
that.
    So I think there are some things you can do. First is you 
are right that there was this tension to collect metrics. You 
have got to pull the counting of people away from the people 
who are supposed to be making sure nothing bad gets through the 
system. So I do not want my frontline screeners counting people 
when what they really need to be doing is paying attention to 
what is coming through the system. Managers can do that, so you 
have distributed the duties where I think they belong.
    There is a science to queue management, and I am learning 
more about that as I make my travels around. I actually talked 
to quite a few people about queue management, and I think we 
can learn some things. There are some best practices in the 
industry that I think we can do a better job of distributing. 
But I do not think queue management belongs in that frontline 
screener workforce. It belongs in a different location. So that 
is one thing that you can do.
    Second is, I do think you can measure effectiveness even in 
the absence of something happening. I mean, that is in itself a 
measure, but it is not the only measure. You can look at the 
readiness of your equipment to operate, so it is all the 
equipment that we are fielding. Is it calibrated properly? Is 
it tested? Is it working at the same standards, and is it 
ready? So is there a readiness measure that you have? That is 
an idea I bring with me from my military service. You have an 
equipment readiness measure that says whether or not you are 
prepared to do the things you are being asked to do.
    There is a system performance. Is the system performing? As 
you look at these measures across, do you see any gaps or any 
shortfalls? How is the workforce performance, not just the 
daily inject testing, but how are they being assessed because 
they go through regular assessment scores? Are you training 
them as they are supposed to perform, or are you using 
equipment that does not look like anything that they are going 
through? And that is some of the reason I want to get to some 
centralized training. And then, of course, what are you doing 
with respect to covert testing?
    Then I think that there are some things--I have seen some 
innovative ideas for how you can improve efficiency while not 
taking your eye off of security. I mentioned I recently made a 
trip to visit with some counterparts in Europe. I was in the 
UK, France, and the Netherlands. And some of what they are 
doing in terms of creating multiple stations at the checkpoint 
to begin to divest, then placing yourself on the queue for the 
belt as opposed to following just a line of people allows you 
to move more people more efficiently through the system.
    And as I have talked to some of the airports around the 
country that are in the process of looking to recapitalize 
their physical plant, I think we have an opportunity to try out 
some innovative designs there going forward. So I think it is a 
combination of measures that tell you whether or not you are 
ready to do your mission, and there are a number of those that 
I have enumerated that we can talk about.
    And then it is how--when you do that--effectively can you 
move people through while yet resolving all those alarms. And 
there are some, I think, some simple changes that we can do 
over time to adjust the layout of the system that will move 
people more effectively through the system.

                PASSENGER PROCESSING DURING SURGE TIMES

    Senator Baldwin. And, Mr. Chairman--I do not know if you 
are doing another round of questioning, because otherwise I do 
have one such suggestion to offer that I have gotten from 
feedback from my constituents.
    Senator Hoeven. We will have another round, but you can 
certainly go ahead depending on how long you think it will 
take.
    Senator Baldwin. Well, just let me comment on a situation 
that has come to my attention. Recently in my home airport, a 
lot of the equipment is allocated, the X-ray equipment in 
particular, based on passenger averages throughout a year. 
Certain communities have surge times when an exceptional number 
of people come through airports, whether it is a business that 
holds an enormous conference or I suppose in some areas it is 
sports team, et cetera. And the allocation of equipment does 
not take into consideration those surge times. And so, I would 
imagine that it would be able to help with both security and 
efficient processing--timely processing of passengers.
    In our own case we have a conference that brings 10,000 
people in through the airport in 1 week. It happens every year, 
and we know it is going to happen every year, hour and a half 
wait to get out.
    Mr. Neffenger. That was the EPIC convention, right, 
recently? I have heard of it.
    Senator Baldwin. It is a double entendre in this case.
    Mr. Neffenger. So I have asked our local FSD to meet with 
the airport director out there. I think that there--you have to 
be careful. You do not want to staff to the possible level that 
does not occur very often because then you have staff and 
equipment that is in excess of what you need. But I think that 
there is a middle ground there, and I like that idea of working 
with it.
    And there may be a way to surge some things in for 
expected, particularly if there is something that happens on a 
regular routine basis. You know it is going to happen. It is no 
different than a reserve workforce that says we are going to 
have to do a lot of extra work around the Christmas holiday and 
around the Thanksgiving holiday, so you bring in a reserve 
staff.
    So here is what I will tell you. Let me look at that. I 
know that I have asked our local Federal Security Director to 
talk about that, and I will follow up on some suggestions I 
think that will come out of that as well.

                PASSENGER SCREENING: PERFORMANCE METRICS

    Senator Hoeven. Administrator, I want to go back to the 
testing, tracking, and metrics. So as you implement these 
changes to training people, to updating your procedures, and to 
technology, how are you testing and how are you measuring that 
result? Because this is something that I want to continue to 
follow up with you, not just at this hearing, but as we go 
forward so we know whether the changes that you are making in 
fact accomplish the objective. And I am going to ask Mr. Roth 
this same question.
    Mr. Neffenger. Well, as I said, there is a readiness 
standard that we want to create in the equipment, and by that I 
mean I want to know if we have standards to which we expect 
equipment to operate, then I want to measure to those standards 
on a consistent basis. So one measure is, can I verify that 
every piece of equipment, AIT machines in particular, I have 
out there is actually performing to the standards I expect it 
to, and then what is the nature of that verification, so that 
there is a testing nature to that verification? So that is one 
measure of effectiveness for the equipment itself.
    Then I want to understand how my workforce is performing 
with respect to moving people through it. So if I can verify 
that the equipment is performing to its highest capability, or 
at least to the capability we expect it to perform to, then I 
need to make sure that the person who is operating that piece 
of equipment operates it to its highest capability, and that 
they understand what they need to do when that equipment poses 
a challenge in the form of an alarm or something else. And they 
also have to understand when that equipment is not working.
    So how do you do that? There are injects that you put into 
it. You can make the machine operate improperly and see if you 
have trained people to catch that. They should be trained to 
catch that. You can also do additional covert testing whether 
internally or through the inspector general to measure the 
performance. And there is an overall performance of the system 
as a whole. So as you do in the individual case, then I need to 
be able to see that in aggregate across the system whether that 
is within a given airport or multiple airports because I need 
to know what my variation and variability is across the system.
    So what I have asked my staff to do is to develop a series 
of, for lack of a better term, what I call dashboard measures 
across the board for TSA effectiveness in the aviation 
environment in particular. And those measures would be a 
measure of readiness of equipment and readiness of people, and 
both are measures of whether they have been trained. That is 
one measure. I check the first block. And then there are 
measures of whether they have been tested on their training, 
and then how have they performed on that testing, and then what 
is the variability in my workforce because that helps me 
determine whether or not my training is actually effective for 
what I do.
    And then we measure what to do with respect to testing the 
system in a real-world environment. So assuming that I think my 
equipment is ready and the people are ready, because they seem 
to be performing well in a test environment, now what happens 
when I put them to the real test when they do not know if 
somebody is coming through? This is not a game, and they have 
got to catch somebody coming through.
    There are lots of obvious details associated with that. I 
am not sure if that is responsive to your question, but that is 
kind of a large measure of the way in which I look at it. 
System readiness, system performance, workforce readiness, and 
then workforce performance are my overarching measures, and 
then the subcomponents of those to answer those questions.
    Senator Hoeven. So you said standards in each of those 
areas, and then you test to those standards.
    Mr. Neffenger. Yes, sir. And the other thing is you test 
whether the standards are appropriate because I may set 
standards and then discover that my standards are 
inappropriate, and I may find that out because something just 
got through the checkpoint, or I may find that out because 
somebody has performed to standard, but they still have not 
found something. So in some cases on some of the tests, if you 
find that a process is not effective at finding a threat item, 
then my standard is no longer--is the wrong standard, and I 
have got to adjust that.
    So you have to have a way to not just set the standards and 
assume you got them right, but to set the standards and then 
test your standards as well. So there is a component of this 
that assures that you are constantly testing the things that 
you say are the most critical to do.
    Senator Hoeven. Have you set those standards in each of the 
three areas--people, procedure, and technology--and have you 
set the overall standard?
    Mr. Neffenger. We have set many of those standards. I am 
not where I want to be yet. We are still working on those. Part 
of that is as we look at what the Tiger Team results are, and I 
expect the actual full final report by the end of this month. I 
will be sharing that with this committee so that you will have 
it, and we would look forward to the opportunity to actually 
come up and walk you in detail through the findings.
    Those findings are showing us exactly where we need to 
address our standards. I think we have some standards that are 
fine and that are appropriate, and I think we have some that 
need to be developed still as we look toward getting this. I 
want to get the immediate challenges corrected because I need 
to put confidence back in the system.
    I am confident in the system. I am confident that a lot of 
the training that we have done already has dramatically 
improved our ability to catch threat injects coming through. We 
will test that over the coming months. I am confident that the 
system is safe and the system is working. But I want to work 
hard on creating a deliberate process for continuously 
reviewing the standards and the training that we need to manage 
and to maintain those standards, the equipment that we need to 
meet the standards that we set, and then a review process that 
allows us to continually adjust those standards over time so 
that you do not just set it and forget it.
    My great fear is that, particularly in an environment where 
security is of the greatest concern and in an environment that 
we have, when you have an evolving, and adapting, and learning 
enemy, you have to have an evolving, adapting, and learning 
system. And the day that you set a security system and say I 
got it right is the day you begin to lose the system's 
effectiveness.
    Senator Hoeven. Mr. Roth, would you respond to that both in 
terms of the standards and Administrator Neffenger's sense that 
the system is safe, although it needs to be continuously 
improved and adapted as the threat changes?
    Mr. Roth. Certainly. One of the things that we found during 
the audit process was that there were actually no metrics in 
place for the FSDs, the Federal security directors, at the 
airports involving safety. All the metrics regarded throughput 
and wait times and those kinds of things as opposed to safety. 
So, of course, you get what you measure, and what we got was 
the results of our covert testing.
    We do a number of things to try to establish metrics, one 
of which obviously and the most visible one is the covert 
testing. We believe there is aw value there because it is real-
world testing. It takes the machine out of the lab and puts it 
into an environment that is likely to be the thing that will 
have to be measured. So we do our own covert testing.
    The other thing that we are going to rely, I think, a 
little bit more heavily is on TSA's own internal covert testing 
that they do. We have already taken a look at it to determine 
whether or not it is reliable and trustworthy under sort of our 
own internal auditing standards, and we will be working with 
those teams to make sure that that system is something that is 
reliable because I do think that is the best sort of real-world 
measure of whether or not you are succeeding is these kinds of 
covert testing. Just like the best measure of a football team 
is how they do on Sunday, the best measure of the system as a 
whole is going to be whether or not they get through.
    We are also going to be doing verification reviews. I 
alluded to the 115 different audits and inspections that we 
have done. Many of those are closed. For example, we did one on 
the behavior of detection officers, and one of the things that 
we found was that there were not any established metrics. And 
there were some issues with training and a number of other 
things. GAO did a similar report with regard to the science of 
behavior detection. Those recommendations are closed.
    We are conducting a series of verification reviews that 
basically say we are going to look at that again and see 
whether or not those recommendations made sense at the time and 
whether it has fixed the problem that we have identified. So 
that is the other thing that we are going to do, particularly 
in the area of metrics, for example, with the behavior of 
detection officers.
    With regard to your question as to whether or not the 
threat is or the response to the threat is sufficiently----
    Senator Hoeven. Right, and let me stop you for just a 
minute. Your sense of the immediate threats or problems that 
you identified and how well those are being addressed? Are they 
being addressed? What is your sense of that, the immediate 
threats issues that you identified?
    Mr. Roth. Certainly the response has been everything that 
we could have hoped for. I do not think I could imagine a 
scenario where they are taking it more seriously than they are 
taking it now, and they are putting steps in place. Now, as an 
auditor I cannot say that those steps are effective because we 
have not done any continuation testing with regard to it. But 
if what we are measuring is output, that is, are they making 
changes, are they engaging in training, are they tightening up 
the rigor by which they are looking at checkpoint operations, I 
would have to say that it is as fulsome as I have seen or could 
hope for.
    But as an auditor, tests matter, and we are going to be 
continuing to do tests on this, and then we are going to see 
exactly how effective they are.
    Senator Hoeven. Right. So it is really important that these 
standards are put in place and that you are testing to those 
standards right now. And, of course, we follow up on it through 
the inspector general. Senator.

                          EXPEDITED SCREENING

    Senator Shaheen. Thank you. I want to go back to the 
security versus efficiency question because over the past 
couple of years, TSA has moved away from a one-size-fits-all 
approach, and I for one have thoroughly enjoyed being part of 
the PreCheck system. It has gotten me through airports much 
faster, and I appreciate that. I know the Global Entry Program 
is designed to do the same thing.
    So, but I also understand that you are looking at some of 
the other efforts around expediting screening like managed 
inclusion, and are planning to dial those back. So can you talk 
a little bit about that decision? And then I want to make the 
connection of what this is going to mean for resources. And I 
think you alluded to this a little bit in your testimony 
because while I agree security is the number one priority, I 
have been in a lot of airports where people feel like 
efficiency is also important. And so, how do we balance those?
    Mr. Neffenger. Thank you, Senator. And you are right, there 
is a balance needed because you also do not want a lot of 
people packing up outside the airport. That poses its own 
challenges. I think you can find that balance, I really do, but 
it starts with remembering what the primary mission is.
    So I am a huge fan of a risk-based approach to security. We 
all know just intuitively that nearly everyone traveling 
through the system is safe to do so. And, because we know that, 
those who would harm the system are few in number if not 
focused intently on their desire to do damage. So I think--and 
I am a big fan of a vetted population. The more I can know 
about an individual who arrives at a checkpoint, the safer we 
all are, and the more I do not have to worry about that 
individual as a risk to the system.
    You alluded to the managed inclusion. Managed inclusion, as 
you know, is the practice of taking people who are not part of 
a pre-vetted population and randomly assigning them to an 
expedited screening line as a way of improving efficiency in a 
checkpoint operation. And there were some other randomized 
things that were done to them, exposure to trace detection and 
other things, and perhaps sometimes a pat-down that would 
assure you that they were safe to do so.
    I think not just the covert testing results, but our own 
internal review of that tells me that that was introducing 
greater risk into the system than we were willing to accept. So 
that process is stopped. As of September 12, we no longer do 
that. That had represented about 14 percent of the daily 
traveling population--through that randomized assignment that 
were being put into expedited screening lines. So that has been 
turned off.
    Where we still use a version of that is where we have bomb 
sniffing dogs, passenger screening canines. Some of you may 
have seen these at Dulles Airport. These are dogs that are 
trained to detect the traces of explosive vapors that may be 
emitted by someone who has been handling or otherwise been 
around explosives. Where we have those teams in place, we will 
continue to use a version of managed inclusion.
    I am also working with the existing vendor, contractor who 
is doing the PreCheck enrollment to look for opportunities to 
expand that into retail environments outside the airport 
environment. We are, I hope, within days or weeks of putting 
out the request for proposal, which would allow up to three 
private-sector vendors to jump into the enrollment process. We 
are also looking at changing some of the enrollment----
    Senator Shaheen. Can I just clarify what you are saying?
    Mr. Neffenger. Yes.
    Senator Shaheen. So up to three private sector vendors who 
would actually clear people on behalf of----
    Mr. Neffenger. They would not clear on behalf of. They 
would do the initial enrollment. TSA always retains both the 
statutory responsibility and the requirement to do the actual 
vetting. But what they would do is collect the basic 
information necessary, submit it to the Federal Bureau of 
Investigation (FBI), and submit it to the TSA. And then FBI and 
TSA working together would run the names through the various 
clearance processes. But it would just provide more 
opportunities for people to participate.
    I have also worked with the airlines and some of the travel 
groups, like the online travel companies, to do more marketing 
of the program. And I have been working with my other 
counterparts in the Department, Customs and Border Protection 
in particular, to look at a way to make things like global 
entry, PreCheck, Nexus, and Sentri more understandable and 
comprehensible, and more of a one-stop-shop, so that there is 
an understanding of what do I get when I pick one of these 
items.
    I think that we can dramatically increase that population 
over the coming year to two years if we can move forward on 
some of these initiatives. I think that is the best way to 
start to really reduce risk in the traveling population. It 
also allows all of us to focus more intently on the people we 
do not know much about.
    So if you think of a frequent traveler as somebody, and 
this will not sound like a frequent traveler, but who travels 
just three times per year on average if you are traveling in 
the air--that takes care of about 50 percent of the traveling 
population. So if you can get a large percentage of those 
people to sign up for PreCheck, then you could dramatically 
change the whole screening operation, screening environment.
    Senator Shaheen. I have a number of other questions, but my 
time is up, so.
    Senator Hoeven. Senator Baldwin.
    Senator Baldwin. Thank you. I wanted to wade back into the 
discussion we were just having on behavior detection officers. 
In particular, I think it is known as the SPOT Program, the 
Screening Passengers by Observation Techniques Program. And if 
I understand correctly, the scope of the program is about 3,000 
employees involved at a cost of about nearly $900 million over 
a 5-year period between 2007 and 2012.
    And I guess I just want to understand if what we are 
getting for that significant investment if concerns have been 
raised. Mr. Roth, I heard you speak about the audit and that 
audit is now closed. But could you remind us of some of the 
deficiencies that you found in the selection and training of 
these behavior detection officers? And I know the GAO also 
commented about whether or not it has been effective, but I 
would like to hear some of the concerns that you raised, and 
then response about the priority we should have on the program 
moving forward.
    Mr. Roth. Thank you for that question, and this is a 
concern that I had since I started this job. The audit was done 
before I arrived, and many of the recommendations had been 
closed out before I arrived. But functionally, the audit itself 
said that there were no performance measures, so we were not 
exactly sure what it is that we were getting for the 
investment. And you were right; my recollection is about 3,200 
full-time equivalents (FTEs) at any given time who are doing 
this work.
    And the idea is a good one, and I think it emulates what 
occurs in some, for example, European airports and some Middle 
East airports with regard to this idea that you want to have a 
population within TSA who can look somebody in the eye, similar 
to what our Customs officers do when they are admitting entry. 
And I think in my written testimony I talk about some successes 
that we have had in actually keeping terrorists out basically 
based on behavior detection.
    But there are real questions as to whether or not this 
workforce, which is a massive workforce, is appropriately 
trained. Certainly our audit had seen that there was one group 
of training, and then basically there had been no refresher 
training. GAO, I noted, had some real concerns as to the level 
of sort of education, sophistication of some of the BDOs who 
were taking what are inherently flexible and subjective 
criteria and applying them against a vast population. It 
requires, I think, a bit of sophistication to be able to do 
that, and we were not comfortable with the fact that they had 
the population that would be able to do that.
    So this is something that we are going to be looking at as 
we go forward. We are going to take a look at that audit and 
look at those recommendations, and see whether or not those 
recommendations actually fix the problem that we had seen. And 
if it is not, then we will make further recommendations.

                      BEHAVIORAL DETECTION PROGRAM

    Senator Baldwin. Mr. Neffenger, I am very interested to 
hear your reaction to your understanding of that audit and the 
value of that program vis-a-vis other priorities that you have.
    Mr. Neffenger. Well, thank you, Senator. And this is a fair 
question and an appropriate question. Let me just start with a 
general comment before getting specific. In general, if this is 
a tool I can have in my security toolkit and it works, then I 
would like to have it because I like the idea. And I know that 
there are law enforcement agencies worldwide that look at 
behavior of individuals.
    It is not a perfect answer, but these are indicators only. 
So whether you are a cop on the beat or you are working at a 
higher level of security professionalism, there are things that 
I think they will tell you that they rely upon to indicate 
whether or not they should just ask some more questions of 
somebody if nothing else. So in just a generalized statement, I 
think that it is worthwhile to consider it.
    Now, have we implemented it correctly in the TSA? I will 
tell you that we have come down considerably in our numbers in 
that program. It has been reduced by about 15 percent in terms 
of actual bodies over the past 3 years. And the name has 
changed over time. It is still basically the same idea.
    So when I was recently in the Netherlands, the Netherlands 
has their version of a behavioral detection program that they 
run their frontline officers through as well. And I told them 
that, first of all, I would like to understand how they do it. 
I would like to look at their training, and I would like to see 
whether we can benchmark against that. I have also talked to a 
number of large law enforcement agencies near our police 
department--L.A. Police Department. These are agencies I have 
worked with in the past, and said I know you do some version of 
this training for your people.
    So I think I would agree with Inspector General Roth that 
there is more work to be done to determine the effectiveness of 
this, what are the measures you put in place to determine that 
effectiveness, can I base it in validated criteria that are 
validated by a third party. We have done some of that. I know 
that in response--again, this is prior to my arrival, but in 
response to some of the previous concerns and recommendations 
that we did do an--not TSA internal, but the Department's 
Science and Technology Branch did a validation of it, and there 
was a report recently provided to Congress.
    But here is what I will say. I think that it is one of the 
areas I am going to look at hard in the coming months. As I 
said, my first priority was to get through this covert testing 
business, but then I want to look at all the aspects of TSA 
because I want to make sure that we are spending money that is 
provided by the taxpayers in the most effective way to ensure 
the security of the system.
    I would like to think that behavior detection is an 
important element of that system. I think it can be. But I want 
to make sure it is benchmarked against worldwide standards. I 
think that they are out there. So I am looking forward to 
working with police departments that are doing this. I am 
looking forward to working with other like agencies, our 
counterparts in Europe that are doing this to see what they are 
encountering, how are they doing it, and can we benchmark 
against them, and have they done any studies of their own that 
might indicate where we are going. And then I want to take the 
training myself just to figure out what I think of it. And then 
I will get back.
    So my jury is out. If I can come back to you with an 
assessment after I do all that.

                      STAFFING: PEAK FLIGHT TIMES

    Senator Hoeven. Administrator, the airports have peak 
flight times and off-peak flight times, so if you go through a 
checkpoint at a time when they have a whole lot of flights 
arriving and departing, or particularly departing, you can have 
very long lines. I mean, if you think in terms of a static 
workforce versus off-peak times, and that varies throughout the 
day. How are you handling that in terms of your workforce? You 
need a lot more people certain times during the day than you do 
other times. How are you handling that, because this goes to 
both safety and convenience issues?
    Mr. Neffenger. Well, you implied one of the real 
challenges, and that is how to size yourself appropriately when 
you have such disparity in terms of throughput in any given 
day? Some of that is done with the part time workforce, so you 
use--and there is a good reason to have a certain number of 
people working part-time because you do have these big peak 
periods, and you bring the part-time workforce in to help you 
cover those peak periods, and then you move them off during 
your non-peak periods.
    The other thing you can do during the non-peak times--then 
you are going to still need a certain baseline workforce just 
to manage it, and they are going to be available to you during 
those off-peak times. That is a good time to do some of the 
refresher training, some of the ongoing skills training, some 
of the focus on the mission piece that I think we need to do 
more of, and we need to do it more consistently across the 
organization. And then to focus our training on that piece.
    So I think it is a continuing challenge, but one of the 
things that we are doing right now is looking at a true 
staffing model, not just an airport staffing model, but a true 
staffing model for the airport. Again, I think back to my 
experience in the Coast Guard, you start with, okay, if I have 
got a boat, how many people does it take to operate that boat? 
And then when it is a bare minimum necessary, first of all? You 
know, I need somebody to drive it. I need somebody to run the 
engine. I need somebody to throw off the lines. And then, once 
I have got that down, then what do I expect that crew to have 
to do, and how extreme might what I ask them to do be. So then 
how many additional people might I need to have on board or 
might I need to vary the size of that crew over time?
    That is the same approach we are taking to TSA, and over 
the course of the past number of months, we have been looking--
we have been disassembling the entire staffing model to say did 
we get it right? What does it take to operate a checkpoint, and 
what are the true duties of those people at the checkpoint, and 
how are those duties distributed? Are there opportunities to 
combine some of those duties? We have found some opportunities 
to combine those for greater efficiency.
    And then, what do you do about true peak travel times, 
whether it is holiday peak travel, which is its own set of 
challenges, or it is just peak travel throughout the day. As 
you know, you can watch DCA (Ronald Reagan National Airport). 
Between 6:00 and 8:00 in the morning, and then 4:00 and 8:00 in 
the afternoon is when all the activity seems to happen, and 
then it is just dead throughout the remainder of the day.
    I can come back to you with examples of how we are doing 
that and would be happy to do so, and just show you how some of 
those staffing models work, and how you try to find the sweet 
spot so that you do not overshoot and wind up with too many 
people. But you also are sized such that you do not have 
extensive wait periods to get through during those peak travel 
times.

                           STAFFING: TRAINING

    Senator Hoeven. So that would indicate some need for part-
time people, as you indicated. Your turnover rate is about 30 
percent, or at least historically there has been about 30 
percent turnover of those part-time staff. Are you sure then 
sending everybody through FLETC (Federal Law Enforcement 
Training Center) is the way to go in terms of training? Do you 
need some other way to train in order to both manage your staff 
and do it in a reasonably cost-effective way?
    Mr. Neffenger. Well, there is an ongoing training need, as 
you alluded to. The 30-percent rate is what we are seeing as 
turnover just in the first 6 months. That is higher than I 
would like to see it. It is somewhat consistent with the kind 
of new hire turnover you see in other operating agencies, 
although higher than the military or others. So there is a 
weeding out process that always happens in an agency.
    Over time, my overall turnover rate runs around between 10 
and 12 percent for our workforce. For the part-time workforce, 
that number is around 20 to 25 percent over time. I understand 
the concern.
    I do think that you can reduce turnover the more you 
connect and engage somebody with the mission of the 
organization. I do not think there is any substitute for 
consistent, baseline, foundational training to create a 
professional workforce. I think that over time as you do that, 
you will connect that workforce more directly to the mission, 
and they will feel more engaged.
    So as you look at a world-class training facility like the 
Federal Law Enforcement Training Center down in Glynco where we 
have the opportunity to take existing structure, the intermodal 
facility that was built by FAA a number of years ago that has 
an airport operating environment in it. And you can put the 
actual equipment that they will be training on, and you can 
train real-world scenario-based training with play actors from 
the community.
    FLETC has worked with the local community, so you can 
create a true airport environment, and you can do true 
scenario-based training. You can train everything from just 
day-to-day checkpoint operations to even active shooter 
training and the like. You can do it while not taking time away 
from the true real-world environment, and you can do that in a 
way that connects them to the culture of the organization, the 
mission of the organization, and an environment in which they 
are dealing with other professionals from around the country.
    You can provide them with a certificate that certifies them 
as a professional, and you can do that in a consistent, 
repeatable, demonstrable, and measureable way. I do not think 
there is any substitute for that. When you then put them out 
into the field, now you have connected them to an organization 
that is larger than just the airport that they are all going 
to. We are already moving a lot of people around to about 75 
different locations around the country to train, so the 
marginal cost is actually relatively small for, I think, what 
could be potentially a huge game payoff.
    The business case that I am going to present to you 
actually spells this out in a more elegant way than I just did, 
but I think it can show that there is a way to measure what 
some people say is the intangible esprit de corps and 
connectedness that you get when you do that. And then that also 
frees up the airport environments to do that kinds of airport-
specific skills and operational training that they need to be 
able to do that they are having a challenge doing right now.
    But when I have compared the syllabi that is the currently 
in the on-the-job training environment to what we intend to do 
at the Federal Law Enforcement Training Center, from my 
perspective, there is no comparison; you know, going to true 
scenario-based as opposed to online training, actually seeing 
what happens when the kinds of explosives that we are concerned 
about detonate, the kind of damage they do as opposed to just 
watching a video. All I can say is the impact is significantly 
greater, and I believe that if we invest in our workforce in 
that way that we will get a greater investment back from that 
workforce in terms of their commitment to the organization.
    Senator Hoeven. Senator Shaheen.

                      STAFFING: MANAGED INCLUSION

    Senator Shaheen. Thank you. I know we have got a limited 
amount of time left, but I wanted to go back to the managed 
inclusion. And as you referenced, that is going to require 
additional screeners because they are going be more people now 
in the lines. And what do you anticipate for additional 
personnel that will be required?
    Mr. Neffenger. Just as a reminder, we have come down about 
5,600 screeners since 2011, and we were targeting a number in 
fiscal year 2016 that would have reduced us by about another--
let us see. I am trying to think. I will not get the number 
right, but another 600 or 700 people. What I am asking to do 
is--and we have made significant progress toward that number 
that we planned in fiscal year 2016.
    What I am asking to do is to halt right now at the summer 
2015 levels, which would put us below our fiscal year 2015 
actual numbers on board, slightly above by about 600 or so the 
numbers that we had planned to attain in fiscal year 2016. So 
this really is halting a further reduction, not necessarily 
adding new bodies, although it is more than we would have 
predicted in our fiscal year 2016 budget.
    And so, I am asking to hold on to that while still taking 
reductions in other areas. We are still taking the BDO, the 
behavior detection officer, reductions. We are still taking 
savings with--that we get as a result of additional inline 
baggage systems that are being installed, so that allows us to 
save some FTE. And we are taking some savings as a result of 
fewer advanced imaging technology machines out there. So those 
continue.
    But this is specifically with respect to the screening 
workforce. And what I need to do, the reason I am asking to 
hold is I need to evaluate whether or not we have got it right 
on the answer as we try to build the PreCheck population, the 
truly vetted population. I do not want to get to the point 
where I have excessive times because I have overshot while we 
are building up that population.
    So this gives me--this buys me a year to work on the 
expansion of the vetted population to ensure that we get right 
the response to the covert testing failures. And then to work 
through the staffing models that we are doing to determine what 
the actual staffing has to be in the future. But the reminder 
is we have already come down significantly in the size of the 
workforce over the past 4\1/2\ years.

                          SCREENING TECHNOLOGY

    Senator Shaheen. So you talked about the technology and we 
know about some of the shortcomings of the advanced imaging 
technology. What other technologies are you looking at in the 
future that can be helpful as we are screening passengers? Are 
biometrics something that you are thinking about?
    And then, I understand that there are a limited number of 
fairly large companies that do the kind of technology that has 
been used today. Coming from a State where our foundation is 
all small businesses and they are doing a lot of innovative 
work, how can we encourage those small businesses to provide 
some of the innovation that TSA is going to need?
    Mr. Neffenger. I will start with your last point first, 
Senator, because I think that is an important one. I would love 
to find a way to incentive small business to participate more 
often, and more completely, and more effectively in this 
system. As you know, there are large start-up costs to people 
who want to get into this, particularly in the research and 
development side. And we are somewhat hampered by the fact that 
many of these systems are propriety in nature, whether we are 
talking the software, the architecture, or the hardware itself. 
So I think there is a way to approach that.
    I think there are things we can do that could incentivize 
small businesses. I think that there are more public/private 
partnerships that we can do when it comes to research and 
development and developmental testing. I have had some 
conversations already. Within the Department, I have talked to 
some of my former colleagues over at the Department of Defense, 
who have programs where they do this, you know, DARPA-like 
things where you can incentivize the private sector to come up 
with ideas.
    Senator Shaheen. The SBIR Program is one of those that----
    Mr. Neffenger. Exactly. I am hopeful that we can find some 
opportunities going forward. So I am trying to activate all the 
people who can think like this and can bring ideas forward. But 
I think we need to do something because it is never healthy to 
rely upon one or two major vendors as good as they might be. 
But going back to my comment that you cannot spend enough time 
thinking about this and evolving the system. I want to get some 
of the small innovative companies involved as well, 
particularly in the realm of software and other technology 
designs that could be useful.
    That said, what are the kinds of technologies that I think 
we can look to in the future? I think we could--a more 
integrated experience going through, so in other words, you 
ought to be able to test shoes without taking them off their 
feet. I have seen some designs that allow us to do that.
    Senator Shaheen. Yes, thank you. That would be very nice 
for all the women in high heels.
    Mr. Neffenger. Yes, I know. If you talk about efficiency of 
the system, that extra few seconds it takes to both remove 
shoes and put them back on can be challenging. Same thing when 
you are removing belts, and jackets, and so forth. And I have 
seen prototype equipment out there that can address that.
    I am encouraged by some of what I have seen with respect to 
increasing the resolution ability of the existing equipment as 
well as what it might look in the future. For biometrics, the 
Europeans are doing some interesting things with kind of real-
time iris scanning that will connect them. Now, that raises 
issues for us here obviously if you start looking at--colleting 
biometrics on people. But I do think that there comes a time in 
the future where your fingerprint becomes your boarding pass, 
and it ties you directly to the ID that you present.
    We have got technology that we hope to be rolling out that 
you have already funded. It is card authentication technology, 
which in its trials out at Dulles; it has shown real promise. 
And if you are familiar with this, this is the machine that 
reads an ID and determines whether or not it is actually a 
valid and not a counterfeited ID. It ties the individual who 
presents it, or at least it ties the ID to a validated boarding 
pass on the day that you are traveling, and it checks it 
against certain requirements.
    I think the next step is to then validate that the ID is, 
in fact, attached to the person who presented it. But 
ultimately you can get away from the whole boarding pass piece 
entirely, and that will, I think, dramatically improve our 
understanding of who is presenting themselves at the 
checkpoint. It will tie them to a vetted population if you have 
one already. If you are already part of that population, it 
will connect you to the secure flight system and it is a real-
time validation where you are going.
    Then I have seen a lot of talk about--people have said 
things like screening at the speed of light for the security 
point of the future. All those are artful terms that are really 
just to indicate that there is a security system out there that 
I think looks very different from the one we have, but that 
would require a huge investment to get to. I think the 
opportunity to try some of these things out is where you have 
airports, as I mentioned before, that are doing something new 
and innovative.
    So I have talked to Denver about this, and I am interested 
in talking to LaGuardia as they think about recapitalizing, and 
some other airports----
    Senator Shaheen. Please, that would be great.
    Mr. Neffenger. [continuing]. To see an opportunity to do 
something different. And I think if you even do a couple of key 
demonstration projects, then it may create--first of all, it 
gives us a test bed, and it may create an opportunity for us to 
look for things like that in the future.
    Senator Shaheen. Thank you.

                              AIR MARSHALS

    Senator Hoeven. I think you have covered most of the 
questions that I had. Maybe one I would finish up with is your 
plan for the Federal Air Marshals.
    Mr. Neffenger. Well, let me start by saying I am really 
encouraged by the new director of the air marshals, Rod 
Allison, and his plan. What I have asked him to do and actually 
what he undertook even before I should say I asked him to do 
it--I am encouraging that he continue with his plan because he 
had this plan before I was confirmed--to really examine the 
entire air marshal operating concept. I think it is a good idea 
14 years after the attacks of 9/11 to determine whether or not 
we are still positioning ourselves properly in all aspects of 
what we do.
    I like having a badged law enforcement officer capability 
within TSA because I think there are unique challenges to the 
transportation system that can be addressed by having a law 
enforcement capability within the system. I know that Director 
Allison has looked really hard at the current employment 
deployment and strategy for the Air Marshals. He is working on 
developing a true staffing standard. We have never had a true 
staffing standard for the air marshals. I want to know what it 
takes to do what we need to do.
    I will tell you that there are things that air marshals do 
currently on aircraft, which I can provide you in a classified 
setting that tell me that some capability like that is always 
going to be necessary. The question is beyond that, what else 
are we doing with them? And then how can we create other 
opportunities within the Air Marshal Program, whether it is the 
VIPR teams--visible intermodal protection and response teams--
those interagency, law enforcement teams that look at other 
modes of transportation and other aspects of the transportation 
system.
    So what I would say is, I think this is a good time for the 
air marshals because they have got a powerful, and visionary, 
and forward, and future-focused leader, who I think over the 
coming months is going to present me and oversight committees 
with a more compelling vision for them as well as at least a 
basis for discussion about the future of the Air Marshal 
Program going forward.
    I will say this, we do need to get to a point where we can 
hire back into the program. We have been on a 4-year hiring 
freeze. A lot of the air marshals are aging out on mandatory 
retirement over the coming years. I think some 30 percent of 
that workforce will time out--for mandatory retirement age--
within the next 5 years. And at a minimum I need to replenish 
that workforce with new people coming in. So I am hoping that 
we can get the hiring freeze lifted and begin to--at least hire 
into attrition rate in the program.
    Senator Hoeven. Senator Shaheen.

                       AVIATION SECURITY: GLOBAL

    Senator Shaheen. I just have a final question, and that has 
to do with international travel because obviously as we look at 
the challenges we are facing from terrorist groups, thinking 
about how to address international travel and people coming 
into the country is a challenge. Can you talk about what you 
are doing in terms of working with other international airports 
and our countries around the world to address this issue?
    Mr. Neffenger. That is a key point, Senator. I think I 
mentioned briefly in my opening statement that a consistent 
global approach to aviation security is critical because you do 
not want to create the opportunity to exploit differences and 
vulnerabilities that naturally exist if you have differences in 
your approach.
    I did just recently return from meetings with my 
counterparts in the United Kingdom, France, and the 
Netherlands. This is a specific topic of conversation. We were 
also talking surface security in the wake of the recent 
attempted attack outside of Paris on the train into Paris.
    But one of the things I wanted to do is first understand 
how security is over there. And if you have traveled 
internationally, you know that there are slight differences, 
some nuanced differences, and sometimes very dramatic 
differences in the way we do that.
    There is an upcoming aviation security conference and 
international conference that I will be attending later in 
October, and a specific topic of concern for me is that we move 
toward a more globalized approach and a more globalized set of 
standards to aviation security.
    There has been a lot of work done in that regard. I think 
there is a lot more that can be worked on, and I want to tie 
myself very closely to my international counterparts so that we 
do not introduce any vulnerabilities into the system that 
should not be introduced.
    Senator Shaheen. Thank you. Mr. Chairman, I do not have any 
further questions, but I would just like to for the record 
acknowledge that we just had a very big visit in this country 
from the Pope. It was a huge national security issue, and we 
had a lot of law enforcement agencies involved in that, the 
Secret Service. And they did a really spectacular job, and I 
think it is important for us to acknowledge that.
    Mr. Neffenger. And quite a few of our TSA screeners that 
were working on the frontlines.
    Senator Shaheen. Thank you.
    Senator Hoeven. Thank you, Senator Shaheen. I would also 
like to acknowledge that Administrator Neffenger has made a 
real effort to reach out to airport administrators and the 
aviation industry. And I think that outreach effort has been 
well received. I think it is very important because, as you 
said, they are a very important part of the security and the 
safety of the screening as well as trying to do it in the most 
customer friendly manner for the traveling public. So I think 
that is certainly something that is to be commended.
    I want to thank you, Administrator Neffenger. At the 
outset, Inspector General Roth talked about the need for a 
culture change in terms of addressing the problems that have 
been found. And what I hear him saying is that you have brought 
that mindset of making sure that any changes necessary to 
address the challenges and the problems are exactly what you 
are going to do, and work with your workforce to make sure that 
we are meeting the safety standards that we need to achieve, 
and doing it with the best convenience to the traveling public. 
And so, in that regard, the standards that you set, and your 
testing of those standards, are both vitally important.
    And to the Inspector General, thank you for the work that 
you have done and the way that you have handled that work both 
immediately upon finding your results, but then also as follow 
up. And we will look for you for continued verification and 
follow up of the people, the technology, and the procedures 
that are being put in place, again, to achieve the safety that 
we want and the convenience that we want for the traveling 
public. So thanks to you both. Again, thanks to Ranking Member 
Senator Shaheen.
    And with that, this subcommittee stands in recess. Thank 
you.

                         CONCLUSION OF HEARINGS

    [Whereupon, at 12:54 p.m., Tuesday, September 29, the 
hearings were concluded, and the subcommittee was recessed, to 
reconvene subject to the call of the Chair.]

                                   - 
</pre></body></html>
